                         Pension Benefit Guaranty Corporation
                                                           Office of Inspector General
                                          1200 K Street, N.W., Washington, D.C. 20005-4026



To the Board of Directors
Pension Benefit Guaranty Corporation

The Office of Inspector General contracted with Clifton Gunderson LLP, an independent certified
public accounting firm, to audit the financial statements of the Single-Employer and Multiemployer
Program Funds administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the
years ended September 30, 2011 and 2010. They conducted their audit in accordance with auditing
standards generally accepted in the United States of America; Government Auditing Standards
issued by the Comptroller General of the United States; attestation standards established by the
American Institute of Certified Public Accountants; and OMB audit guidance.

In their audit of PBGC’s Single-Employer and Multiemployer Program Funds, Clifton Gunderson
found:

  • The financial statements were presented fairly, in all material respects, in conformity with
    accounting principles generally accepted in the United States of America;

  • PBGC did not have effective internal control over financial reporting (including safeguarding
    assets) and compliance with laws and regulations and its operations as of September 30, 2011.
    Serious internal control weaknesses in PBGC’s programs and operations resulted in three
    material weaknesses: (1) entity-wide security program planning and management, (2) access
    controls and configuration management, and (3) Benefits Administration and Payment
    Department operations. A significant deficiency was also identified in integrated financial
    management systems.

  • PBGC did not determine the fair market value of plan assets at the date of plan termination in
    accordance with the regulation established at Title 29 of the Code of Federal Regulation Part
    4044.41(b) in certain instances.

Clifton Gunderson is responsible for the accompanying auditor’s report dated November 14, 2011
and the conclusions expressed in the report. We do not express opinions on PBGC’s financial
statements or internal control, nor do we draw conclusions on compliance with laws and regulations.

The financial statement audit report (AUD-2012-1 / FA-11-82-1) is also available on our website at
http://oig.pbgc.gov.


Sincerely,



Rebecca Anne Batts
Inspector General
November 14, 2011
              Audit of the Pension Benefit Guaranty Corporation’s
               Fiscal Year 2011 and 2010 Financial Statements

                    Audit Report AUD-2012-1 / FA-11-82-1




                                    Contents


Section I:      Independent Auditor’s Report

Section II:     Pension Benefit Guaranty Corporation’s
                Fiscal Year 2011 and 2010 Financial Statements

Section III:    Management Comments




                                   Acronyms

A&A             Assessment and Authorization
BAPD            Benefits and Payment Department
CFR             Code of Federal Regulations
CFS             Consolidated Financial System
ETA             Enterprise Target Architecture
FIPS PUB        Federal Information Processing Standards Publication
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FY              Fiscal Year
IPERA           Improper Payments Elimination and Recovery Act
IT              Information Technology
IPVFB           Integrated Present Value of Future Benefits
NIST SP         National Institute of Standards and Technology Special Publication
OFFM            OMB Office of Federal Financial Management
OIG             Office of Inspector General
OMB             Office of Management and Budget
PBGC            Pension Benefit Guaranty Corporation
TAS             Trust Accounting System
U.S.C.          United States Code
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2011 and 2010 Financial Statements

      Audit Report AUD-2012-1 / FA-11-82-1




                    Section I

       Independent Auditor’s Report
 a1
 To the Board of Directors, Management,
 and Inspector General of the
 Pension Benefit Guaranty Corporation
 Washington, DC

                                     Independent Auditor’s Report

 In our audits of the Single-Employer and Multiemployer Program Funds administered by the
 Pension Benefit Guaranty Corporation (PBGC or the Corporation) for fiscal years (FY) 2011 and
 2010, we found:

 •     The financial statements are presented fairly, in all material respects, in conformity with
       accounting principles generally accepted in the United States of America.

 •     PBGC did not have effective internal control over financial reporting (including safeguarding
       assets) and compliance with laws and regulations and its operations as of
       September 30, 2011.

 •     Reportable noncompliance with laws and regulations we tested.

 The following sections discuss in more detail (1) these conclusions, (2) our conclusions on other
 accompanying information, (3) our audit objectives, scope, and methodology, and (4)
 management comments and our evaluation.

                                    Opinion on Financial Statements

 The financial statements, including the accompanying notes, present fairly, in all material
 respects, in conformity with accounting principles generally accepted in the United States of
 America, the financial position of the Single-Employer and Multiemployer Program Funds
 administered by PBGC as of September 30, 2011 and 2010, and the results of their operations
 and cash flows for the FYs then ended.

 By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As
 of September 30, 2011, PBGC reported in its financial statements net deficit positions (liabilities
 in excess of assets) in the Single-Employer and Multiemployer Program Funds of $23.27 billion
 and $2.77 billion, respectively. As discussed in Note 9 to the financial statements, loss exposure
 for the Single-Employer and Multiemployer Programs that are reasonably possible as a result of
 unfunded vested benefits are estimated to be $227 billion and $23 billion, respectively.
 Management based the Single-Employer Program estimate on data for FYs ending in calendar
 year 2010 that was obtained from filings and submissions to the government and from corporate
 annual reports. A subsequent adjustment for economic conditions through September 30, 2011,
 has not been made and as a result the exposure to loss for the Single-Employer Program as of
 September 30, 2011 could be substantially different. In addition, PBGC’s net deficit and


11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301.931.2050


                                                                                   h
fax: 301.931.1710
                                                  1
www.cliftoncpa.com
long-term viability could be further impacted by losses from plans classified as reasonably
possible (or from other plans not yet identified as potential losses) as a result of deteriorating
economic conditions, the insolvency of a large plan sponsor or other factors. PBGC has been
able to meet its short-term benefit obligations. However, as discussed in Note 1 to the financial
statements, management believes that neither program at present has the resources to fully
satisfy PBGC’s long-term obligations to plan participants.

                                   Opinion on Internal Control

Because of the effect of the material weaknesses described below on the achievement of the
objectives of the control criteria contained in the Federal Managers’ Financial Integrity Act of
1982 (FMFIA) at 31 U.S.C. 3512(c) and (d), PBGC did not maintain effective internal control
over financial reporting (including safeguarding assets) and compliance with laws and
regulations and its operations as of September 30, 2011.

We identified certain deficiencies in internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations and its operation that we
consider material weaknesses, and other deficiencies that we consider to be significant
deficiencies. These material weaknesses adversely affected PBGC’s ability to meet the internal
control objectives listed in the objectives, scope, and methodology section of this report, or meet
Office of Management and Budget (OMB) criteria for reporting matters under FMFIA.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiencies in the following areas
material weaknesses:

   1. Entity-wide Security Program Planning and Management
   2. Access Controls and Configuration Management
   3. Benefits Administration and Payment Department Operations

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies in the following area a significant deficiency:

   4. Integrated Financial Management Systems

                                   ********************************

PBGC protects the pensions of more than 44 million workers and retirees in more than
27 thousand private defined benefit pension plans. Under Title IV of the Employee Retirement
Income Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of
participants in covered private defined benefit pension plans in the United States. To
accomplish its mission and prepare its financial statements, PBGC relies extensively on
information technology (IT) and the effective operation of the Benefits Administration and
Payment Department (BAPD). Internal controls over these operations are essential to ensure


                                                  2
the confidentiality, integrity, and availability of critical data while reducing the risk of errors,
fraud, and other illegal acts.

The slow progress of mitigating PBGC’s systemic security control weaknesses and the serious
internal control weaknesses in BAPD posed an increasing and substantial risk to PBGC’s ability
to carry out its mission during FY 2011. The extended time required and the lack of meaningful
progress in PBGC’s multiyear approach to correct previously reported deficiencies at the root
cause level, introduced additional risks. These include technological obsolescence, inability to
execute corrective actions, breakdown in communications and poor monitoring. BAPD’s weak
internal controls create an environment that could lead to fraud, waste, and abuse.

PBGC’s historical decentralized approach to system development and configuration
management exacerbated control weaknesses and encouraged inconsistency in implementing
strong technical controls and best practices. The influx of 620 plans for over 800,000
participants from 2002-2005 contributed to PBGC’s disjointed IT development and
implementation strategy. The mandate to meet PBGC’s mission objectives by implementing
technologies to receive the influx of plans superseded proper enterprise planning and IT
security controls. The result was a series of stovepipe solutions built upon unplanned and poorly
integrated heterogeneous technologies with varying levels of obsolescence.

The Corporation continued its implementation of an enterprise multi-year corrective action plan
(CAP) to address IT security issues at the root cause level. PBGC management realizes these
weaknesses will continue to pose a threat to its environment for several years while corrective
actions are being implemented. PBGC needs to implement interim corrective actions to ensure
fundamental security weaknesses do not worsen as the CAP is being implemented.

PBGC performed a more rigorous and thorough assessment and authorization (A&A) process,
formerly referred to as a certification and accreditation process. This process identified
significant fundamental security control weaknesses for its general support systems, many of
which were reported in prior year’s audits. These weaknesses remain unresolved. PBGC
reports that the Corporation is in the process of performing A&As on its major applications.

We continued to find deficiencies in the areas of security management, access controls,
configuration management, and segregation of duties. Control deficiencies were also found in
policy administration and the A&As.

An effective entity-wide security management program requires a coherent strategy for the
architecture of the IT infrastructure, and the deployment of systems. The implementation of a
coherent strategy provides the basis and foundation for the consistent application of policy,
controls, and best practices. PBGC first needs to develop and implement a framework to
improve its security posture. This framework will require time for effective control processes to
mature.

Additionally, serious internal control weaknesses in the BAPD’s operations were identified by
the Office of the Inspector General (OIG) and others during FY 2011. These significant control
weaknesses introduced additional risks to PBGC. Specific deficiencies included errors in
valuation of plan assets, lack of documentation supporting benefit payments, errors in benefit
calculations, and poor oversight of the Pension and Lump Sum System (PLUS). In response to
weaknesses identified by OIG, BAPD is currently undergoing a strategic review that may
address organizational structure and operational issues. BAPD stated it will develop a plan in

                                                 3
FY 2012 that will address the deficiencies noted in the financial statement audit, Improper
Payments Elimination and Recovery Act (IPERA) mandated review, and other internal reviews.
This plan is intended to focus on fundamental issues such as internal controls, processes,
contractor oversight, and training and staff competencies.

Based on our findings, we are reporting that the deficiencies in the following areas constitute
three material weaknesses for FY 2011:

   1. Entity-wide Security Program Planning and Management
   2. Access Controls and Configuration Management
   3. Benefits Administration and Payment Department Operations

We are also reporting the deficiencies in the following area to be a significant deficiency for FY
2011:

   4. Integrated Financial Management Systems

Detailed findings and recommendations follow.

1. Entity-wide Security Program Planning and Management

   An entity-wide information security management program is the foundation of a security
   control structure and a reflection of senior management’s commitment to addressing
   security risks. The security management program should establish a framework and
   continuous cycle of activity for assessing risk, developing and implementing effective
   security procedures, and monitoring the effectiveness of these procedures. Overall policies
   and plans are developed at the entity-wide level. System and application-specific
   procedures and controls implement the entity-wide policy. Through the Federal Information
   Security Management Act of 2002, Congress requires each Federal agency to establish an
   agency-wide information security program to provide security to the information and
   information systems that support the operations and assets of the agency, including those
   managed by a contractor or other agency. OMB Circular No. A-130, Appendix III, Security of
   Federal Automated Information Resources, requires agencies to implement and maintain a
   program to assure that adequate security is provided for all agency information collected,
   processed, transmitted, stored, or disseminated in general support systems and major
   applications.

   PBGC continued the implementation of its CAP to address fundamental weaknesses in its
   entity-wide security program planning and management. During FY 2011 PBGC began the
   implementation of a more rigorous and thorough A&A process. Through this process PBGC
   identified significant fundamental security control weaknesses for its general support
   systems, many of which were reported on in prior years’ audits. While this is an important
   step in the planning process, these security control weaknesses remain unresolved and
   PBGC’s efforts lack sufficient meaningful incremental progress. PBGC reports that they are
   in the process of performing A&As on its major applications. The slow rate of progress has
   introduced additional risks including technological obsolescence, inability to execute
   corrective actions, breakdown in communications and poor monitoring.

   In prior years, PBGC’s entity-wide security program lacked focus and a coordinated effort to
   adequately resolve control deficiencies. These deficiencies, which continue to persist,

                                                4
   prevent PBGC from implementing effective security controls to protect its information from
   unauthorized access, modification, and disclosure.

   Without a well-designed and fully implemented information security management program,
   there is increased risk that security controls are inadequate; responsibilities are unclear,
   misunderstood, and improperly implemented; and controls are inconsistently applied. Such
   conditions may lead to insufficient protection of sensitive or critical resources and
   disproportionately high expenditures for controls over low-risk resources.

   Recommendations:

   PBGC management should continue to develop and implement a well-designed security
   management program that will provide security to the information and information systems
   that support the operations and assets of the Corporation, including those managed by
   contractors or other Federal agencies.

   PBGC should accelerate the rate of meaningful progress in mitigating the Corporation’s
   systemic security control weaknesses, and address the additional risks of technological
   obsolescence, inability to execute corrective actions, breakdown in communications and
   poor monitoring.

   PBGC management should effectively communicate to key decision makers the state of its
   IT infrastructure and environment to facilitate the prioritization of resources to address
   fundamental weaknesses.

2. Access Controls and Configuration Management

   Although access controls and configuration management controls are an integral part of an
   effective information security management program, access controls remain a systemic
   problem throughout PBGC. PBGC’s historical decentralized approach to system
   development, system deployments, and configuration management created an environment
   that lacks a cohesive structure in which to implement controls and best practices.
   Weaknesses in the IT environment contributed significantly to deficiencies in system
   configuration, segregation of duties, role-based access controls, and monitoring.
   Furthermore, PBGC’s information systems are overlapping and duplicative, employing
   obsolete and antiquated technologies that are costly to maintain. The state of PBGC’s IT
   environment led to increased IT staffing needs, manual workarounds, reconciliations,
   extensive manipulation, and excessive manual processing that have been ineffective in
   providing adequate compensating controls to mitigate system control weaknesses.

   Access controls should be in place to consistently limit and detect inappropriate access to
   computer resources (data, equipment, and facilities), or monitor access to computer
   programs, data, equipment, and facilities. These controls protect against unauthorized
   modification, disclosure, loss, or impairment. Such controls include both logical and physical
   security controls to ensure that Federal employees and contractors will be given only the
   access privileges necessary to perform business functions. Federal Information Processing
   Standards Publication (FIPS PUB) 200, Minimum Security Requirements for Federal
   Information and Information Systems, specifies minimum access controls for Federal
   systems. FIPS PUB 200 requires PBGC’s information system owners to limit information
   system access to authorized users.

                                               5
   Industry best practices, National Institute of Standards and Technology (NIST) special
   publication (SP) 800-64, Security Considerations in the System Development Life Cycle,
   and other Federal guidance recognize the importance of configuration management when
   developing and maintaining a system or network. Through configuration management, the
   composition of a system is formally defined and tracked to ensure that an unauthorized
   change is not introduced. Changes to an information system can have a significant impact
   on the security of the system. Documenting information system changes and assessing the
   potential impact on the security of the system, on an ongoing basis, is an essential aspect of
   maintaining the security posture. An effective entity-wide configuration management and
   control policy and associated procedures are essential to ensuring adequate consideration
   of the potential security impact of specific changes to an information system. Configuration
   management and control procedures are critical to establishing an initial baseline of
   hardware, software, and firmware components for the entity and subsequently controlling
   and maintaining an accurate inventory of any changes to the system.

   Inappropriate access and configuration management controls do not provide PBGC with
   sufficient assurance that financial information and financial assets are adequately
   safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
   destruction.

   Recommendation:

   PBGC management should develop and implement a coherent strategy for correcting IT
   infrastructure deficiencies and a framework for implementing common security controls, and
   mitigating the systemic issues related to access control by strengthening system
   configurations and user account management for all of PBGC’s information systems.

3. Benefit Administration and Payment Department Operations

   BAPD had serious internal control weaknesses identified by OIG and others during FY 2011
   that introduced additional risks to PBGC. Specific deficiencies included errors in valuation of
   plan assets, lack of documentation supporting benefit payments, errors in benefit
   calculations, and poor oversight of PLUS. In response to weaknesses identified by OIG,
   BAPD is currently undergoing a strategic review that may address organizational structure
   and operational issues. BAPD stated it will develop a plan in FY 2012 that will address the
   deficiencies noted in the financial statement audit, IPERA mandated review, and other
   internal reviews. This plan is intended to focus on fundamental issues such as internal
   controls, processes, contractor oversight, and training and staff competencies.

   Internal control weaknesses were pervasive throughout BAPD; however, many of the
   weaknesses identified as part of our financial statement audit stemmed from poor
   management of contractors. Effective oversight requires good communications with
   contractors on their responsibilities for contract compliance and providing timely information
   to PBGC that may affect the controls and/or PBGC’s environment. Contracted services are
   an extension of PBGC’s internal controls. PBGC’s management does not always consider
   the exposure and risk that contractors introduce into its environment and how to manage
   that risk. PBGC does not properly review, assess, and monitor contractor’s internal controls
   related to contracted services.




                                               6
   During FY 2011 we noted deficiencies in BAPD’s oversight of contracted reviews of asset
   values at the date of plan termination (DoPT). These deficiencies were caused by a failure
   to establish and apply a quality review process to verify and validate the satisfactory
   completion of contracted DoPT plan asset valuation audits, and a failure to establish a
   detailed process to ensure the consistent application of a methodology to determine the fair
   market value of plan assets at DoPT as required by regulation.

   We noted deficiencies in BAPD’s oversight of the benefit payment determination and
   disbursement processes. These deficiencies included failures to maintain sufficient
   documentation necessary to verify the accuracy of benefit payments, and to document
   appropriate review and approval of benefit payment calculations; and improper benefit
   determinations resulting in errors in benefits paid.

   We also noted deficiencies in BAPD’s oversight of the service provider for the PLUS
   application. These deficiencies included a lack of an executed document between PBGC
   and the service provider regarding the service provider’s responsibilities and security
   requirements for PLUS; a lack of review by BAPD over the service provider personnel’s
   access to the PLUS system to ensure the personnel were appropriately recertified; a lack of
   review by BAPD of the PLUS System Contingency Plan to assess the plan’s compliance
   with NIST SP 800-34 requirements; and an inadequate assessment of security risks
   associated with operations performed in a foreign country.

   Recommendations:

   PBGC should develop and implement procedures to ensure that future contracts for plan
   asset valuations clearly outline expectations and deliverables in the statement of work, that
   plan asset valuations meet the regulatory standard of determining fair market value based
   on the method that most accurately reflects fair market value, that the results of valuation
   reviews are credible and reliable, and that errors in benefit determinations caused by
   deficiencies in plan asset valuations are identified and corrected.

   PBGC should develop and adopt explicit requirements to obtain and archive source
   documents, as well as a process to monitor and enforce these requirements to ensure
   documentation is maintained to support benefit payments.

   PBGC should strengthen controls over the determination of benefits to ensure the accuracy
   of the amounts paid and recorded in the financial statements.

4. Integrated Financial Management Systems

   The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
   single integrated financial management system. The current system cannot be readily
   accessed and used by financial and program managers without extensive manipulation,
   excessive manual processing, and inefficient balancing of reports to reconcile
   disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management Systems, requires that Federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems. The Circular states:

                                              7
    A financial system, hereafter referred to as a core financial system, is an information
    system that may perform all financial functions including general ledger management,
    funds management, payment management, receivable management, and cost
    management. The core financial system is the system of record that maintains all
    transactions resulting from financial events. It may be integrated through a common
    database or interfaced electronically to meet defined data and processing requirements.
    The core financial system is specifically used for collecting, processing, maintaining,
    transmitting, and reporting data regarding financial events. Other uses include
    supporting financial planning, budgeting activities, and preparing financial statements.
    Any data transfers to the core financial system must be: traceable to the transaction
    source; posted to the core financial system in accordance with applicable guidance from
    the Federal Accounting Standards Advisory Board; and in the data format of the core
    financial system.

OMB’s Office of Federal Financial Management (OFFM), Core Financial System
Requirements, lists the following financial management system performance goals, outlined
in the Framework document, applicable to all financial management systems. All financial
management systems must do the following:

•   Demonstrate compliance with accounting standards and requirements.
•   Provide timely, reliable, and complete financial management information for decision
    making at all levels of government.
•   Meet downstream information and reporting requirements with transaction processing
    data linked to transaction engines.
•   Accept standard information integration and electronic data to and from other internal,
    government-wide, or private-sector processing environments.
•   Provide for “one-time” data entry and reuse of transaction data to support downstream
    integration, interfacing, or business and reporting requirements.
•   Build security, internal controls, and accountability into processes and provide an audit
    trail.
•   Be modular in design and built with reusability as an objective.
•   Meet the needs for greater transparency and ready sharing of information.
•   Scale to meet internal and external operational, reporting, and information requirements
    for both small and large entities.

Because PBGC has not fully integrated its financial systems, PBGC’s ability to accurately
and efficiently accumulate and summarize information required for internal and external
financial reporting is impacted.

If managed effectively, IT investments can have a dramatic impact on an organization’s
performance and accountability. If not correctly managed, they can result in wasteful
spending and lost opportunities for achieving mission goals and improving mission
performance. PBGC had several false starts in modernizing its systems and applications
that have either been abandoned, such as the suspension of work on the Premium and
Practitioner System to replace the Premium Accounting System, or have been ineffective in
leading to the integration of its financially significant systems. Unless PBGC develops and
implements a well designed IT architecture and infrastructure to guide and constrain
modernization projects, it risks investing time and resources in systems that do not reflect



                                            8
   the Corporation’s priorities, are not well integrated, are potentially duplicative, and do not
   optimally support mission operations and performance.

   To its credit, PBGC began to develop an overall strategy, but much work remains before the
   strategy can be completed and implemented. Steps PBGC has taken include the following:

   •   Continued work on its Enterprise Target Architecture (ETA), which provides the road
       map for all PBGC system development and integration, including financial management
       system integration.

   •   Implemented interface enhancements for CFS, including the payroll interface
       modernization, procurement interface, travel interface, and invoice automation. These
       interfaces provide additional automated capabilities for CFS and reduce the amount of
       manual data inputs for certain transactions.

   However, major work remains to be completed to provide PBGC with integrated financial
   management capabilities. PBGC plans to implement the Trust Accounting and FY File
   System (TAS), which is currently in the design phase. TAS will replace existing financial
   applications Portfolio Accounting and Management (PAM), FY File, TIS, and TIS Transfer.
   Additionally, TAS will have automated interfaces with the CMS, CFS, and Integrated Present
   Value of Future Benefits (IPVFB). TAS implementation is currently planned for August 2012.
   Additionally, PBGC has identified future capabilities in its financial management to-be
   architecture including a procurement system a and online budgeting system.

   Recommendation:

   PBGC needs to develop and execute a plan to integrate its financial management systems
   in accordance with OMB Circular A-127.

                          Compliance with Laws and Regulations

Except as discussed below, our tests of PBGC’s compliance with selected provisions of laws
and regulations for FY 2011 disclosed no instances of noncompliance that would be reportable
under U.S. generally accepted government auditing standards or OMB audit guidance.
However, the objective of our audit was not to provide an opinion on overall compliance with
laws and regulations. Accordingly, we do not express such an opinion.

Title 29 of the Code of Federal Regulation (C.F.R.) Part 4044.41 Subpart (b), General valuation
rules, states “Plan assets shall be valued at their fair market value, based on the method of
valuation that most accurately reflects such fair market value.”

As reported above in material weakness number three, BAPD Operations, we noted instances
where PBGC failed to determine the fair market value of plan assets at DoPT as required by this
regulation.

This conclusion is intended solely for the information and use of PBGC’s OIG, Board of
Directors, management of PBGC, Government Accountability Office, OMB, the United States
Congress, and the President and is not intended to be and should not be used by anyone other
than these specified parties.


                                               9
                             Objectives, Scope, and Methodology

PBGC’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; (2) establishing,
maintaining, and evaluating the effectiveness of internal control to provide reasonable
assurance that the broad control objectives of FMFIA are met; its assertion of the internal
control over financial reporting included in PBGC’s FY 2011 Annual Report; and (3) complying
with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether (1) the financial
statements are presented fairly, in all material respects, in conformity with accounting principles
generally accepted in the United States of America; and (2) management maintained effective
internal control as of September 30, 2011 based on management’s assertion included in
PBGC’s FY 2011 Annual Report and on the criteria contained in FMFIA, the objectives of which
are the following:

•   Financial reporting: Transactions are properly recorded, processed, and summarized to
    permit the preparation of financial statements in conformity with accounting principles
    generally accepted in the United States of America, and assets are safeguarded against
    loss from unauthorized acquisition, use, or disposition.

•   Compliance with applicable laws and regulations: Transactions are executed in accordance
    with laws and regulations that could have a direct and material effect on the financial
    statements and any other laws, regulations, and government wide policies identified by
    OMB audit guidance.

We are also responsible for testing compliance with selected provisions of laws and regulations
that have a direct and material effect on the financial statements, and laws for which OMB audit
guidance requires testing and performing limited procedures with respect to certain other
information appearing in PBGC’s FY 2011 Annual Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the accounting principles
used and significant estimates made by management; (3) evaluated the overall presentation of
the financial statements; (4) obtained an understanding of the entity and its operations, including
its internal control related to financial reporting (including safeguarding assets) and compliance
with laws and regulations; (5) tested relevant internal control over financial reporting (including
safeguarding assets) and compliance, and evaluated the design and operating effectiveness of
internal control for the FY ended September 30, 2011; (6) considered the design of the process
for evaluating and reporting on internal control and financial management systems under
FMFIA; and (7) tested compliance for FY 2011 with selected provisions of laws and regulations
that have a direct and material effect on the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance.

We did not test compliance with all laws and regulations applicable to PBGC. We limited our
tests of compliance to selected provisions of laws and regulations that have a direct and

                                                 10
material effect on the financial statements, and to those required by OMB audit guidance that
we deemed applicable to the financial statements for the FY ended September 30, 2011. We
caution that noncompliance may occur and not be detected by these tests and that such testing
may not be sufficient for other purposes.

We conducted our audits and examinations in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards, issued by the
Comptroller General of the United States; attestation standards established by the American
Institute of Certified Public Accountants; and OMB audit guidance. We believe that our audits
and examinations provide a reasonable basis for our opinions.

We considered the material weaknesses identified above in determining the nature, timing, and
extent of our audit procedures on the 2011 financial statements.

                       Management Comments and Our Evaluation

In commenting on the draft of this report (see Section III of this report), PBGC’s management
concurred with the facts and conclusions in our report. We did not perform audit procedures on
PBGC’s written response and, accordingly, we express no opinion on it.


A1
Calverton, Maryland
November 14, 2011




                                             11
  Audit of the Pension Benefit Guaranty Corporation’s
   Fiscal Year 2011 and 2010 Financial Statements

        Audit Report AUD-2012-1 / FA-11-82-1




                     Section II

    Pension Benefit Guaranty Corporation’s
Fiscal Year 2011 and 2010 Financial Statements
 



PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                Single-Employer        Multiemployer         Memorandum
                                                                    Program              Program                Total

                                                                    September 30,           September 30,       September 30,
(Dollars in millions)                                              2011     2010            2011    2010       2011     2010

ASSETS

Cash and cash equivalents                                      $ 5,021 $ 4,442         $      5 $      6    $ 5,026 $ 4,448

Securities lending collateral (Notes 3 and 5)                    4,587         5,427          0        0      4,587     5,427

Investments, at market (Notes 3 and 5):
     Fixed maturity securities                                  46,257        39,789       1,720    1,607    47,977    41,396
     Equity securities                                          17,997        22,393          0        0     17,997    22,393
     Private equity                                               1,459        2,050          0        0      1,459     2,050
     Real estate and real estate investment trusts                 536          459           0        0       536       459
     Other                                                          22           17           0        0        22        17
     Total investments                                          66,271        64,708       1,720    1,607    67,991    66,315



Receivables, net:
     Sponsors of terminated plans                                    31          11           0        0         31       11
     Premiums (Note 11)                                            561          754            1       2       562       756
     Sale of securities                                           1,807        1,589          0        0      1,807     1,589
     Derivative contracts (Note 4)                                 178           78           0        0       178        78
     Investment income                                             469          418          12       12       481       430
     Other                                                            3           5           0        0         3         5
     Total receivables                                           3,049         2,855         13       14      3,062     2,869


Capitalized assets, net                                             32           31            1       1        33        32


Total assets                                                   $78,960       $77,463   $1,739      $1,628   $80,699   $79,091

The accompanying notes are an integral part of these financial statements.




                                                                       1 
 
 



PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                Single-Employer         Multiemployer         Memorandum
                                                                    Program               Program                Total

                                                                     September 30,        September 30,          September 30,
(Dollars in Millions)                                               2011     2010         2011    2010          2011     2010


LIABILITIES


Present value of future benefits, net (Note 6):
     Trusteed plans                                             $91,718 $ 88,021            $1 $        1    $91,719 $ 88,022
     Plans pending termination and trusteeship                     346          501         0           0       346        501
     Settlements and judgments                                       56          55         0           0        56         55
     Claims for probable terminations                              833        1,445         0           0       833       1,445
     Total present value of future benefits, net                92,953       90,022          1          1    92,954      90,023



Present value of nonrecoverable future
     financial assistance (Note 7)
     Insolvent plans                                                  0            0     1,232     1,179       1,232      1,179
     Probable insolvent plans                                         0            0    3,243      1,851       3,243      1,851
     Total present value of nonrecoverable
       future financial assistance                                    0            0    4,475      3,030       4,475      3,030


Payables, net:
     Derivative contracts (Note 4)                                  173          67         0           0       173         67
     Due for purchases of securities                              4,079       3,076         0           0      4,079      3,076
     Payable upon return of securities loaned                     4,587       5,427         0           0      4,587      5,427
     Unearned premiums                                             366          364         31        31        397        395
     Accounts payable and accrued expenses (Note 8)                  68         101         2           2        70        103
     Total payables                                               9,273       9,035        33         33       9,306      9,068

Total liabilities                                              102,226       99,057     4,509      3,064     106,735    102,121

Net position                                                   (23,266)      (21,594)   (2,770)    (1,436)   (26,036)   (23,030)

Total liabilities and net position                             $78,960 $ 77,463         $1,739    $1,628     $80,699 $ 79,091

The accompanying notes are an integral part of these financial statements.




                                                                    2 
 
 



PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                           Single-Employer                           Multiemployer                   Memorandum
                                                              Program                                  Program                          Total

                                                           For the Years Ended                     For the Years Ended            For the Years Ended
                                                             September 30,                           September 30,                  September 30,
(Dollars in Millions)                                       2011              2010                    2011             2010          2011             2010
UNDERWRITING

Income:
    Premium, net (Note 11)                         $      2,072              $    2,231        $       92         $     93    $     2,164       $    2,324
    Other                                                    17                      30                 0                0             17               30
    Total                                                 2,089                   2,261                92               93          2,181            2,354
Expenses:
    Administrative                                          353                     368                14               12           367               380
    Other                                                    21                       (7)               0                0             21                (7)
    Total                                                   374                     361                14               12           388               373
Other underwriting activity:
    Losses from completed and
     probable terminations (Note 12)                        201                     509                 0                0           201               509
    Losses from financial
     assistance (Note 7)                                                                            1,560             831           1,560              831
    Actuarial adjustments (credits) (Note 6)              1,672                   (1,190)               0                0          1,672            (1,190)
    Total                                                 1,873                    (681)            1,560             831           3,433              150
Underwriting gain (loss)                                   (158)                  2,581            (1,482)            (750)        (1,640)           1,831


FINANCIAL:
Investment income (loss) (Note 13):
    Fixed                                                 3,502                   5,233               148             183           3,650            5,416
    Equity                                                 (276)                  2,116                 0                0          (276)            2,116
    Private equity                                          144                     404                 0                0           144               404
    Other                                                    76                    (159)                0                0            76              (159)
    Total                                                 3,446                   7,594               148             183           3,594            7,777
Expenses:
    Investment                                               71                      81                 0                0             71               81
    Actuarial charges (Note 6):
     Due to passage of time                               3,880                   4,215                 0                0          3,880            4,215
     Due to change in interest rates                      1,009                   6,396                 0                0          1,009            6,396
    Total                                                 4,960                  10,692                 0                0          4,960           10,692
Financial income (loss)                                  (1,514)                  (3,098)             148             183          (1,366)           (2,915)
Net loss                                                 (1,672)                   (517)           (1,334)            (567)        (3,006)           (1,084)


Net position, beginning of year                         (21,594)                 (21,077)          (1,436)            (869)       (23,030)          (21,946)
Net position, end of year                          $    (23,266)             $ (21,594)        $   (2,770)        $ (1,436)   $   (26,036)      $ (23,030)


The accompanying notes are an integral part of these financial statements.




                                                                                          3 
 
 


PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                      Single-Employer               Multiemployer               Memorandum
                                                                           Program                     Program                      Total
                                                                     For the Years Ended         For the Years Ended        For the Years Ended
 (Dollars in millions)                                                  September 30,                September 30,                September 30,
____________________________________________________              ______2011 ____2010           ____2011 ____2010            ____2011     _2010
    OPERATING ACTIVITIES:

      Premium receipts                                            $    2,268 $ 2,086             $     91    $       93     $ 2,359 $ 2,179
      Interest and dividends received                                  2,155    1,989                  74            73        2,229   2,062
      Cash received from plans upon trusteeship                           36       81                    0            0           36      81
      Receipts from sponsors/non-sponsors                                 70      241                    0            0           70     241
      Receipts from the missing participant program                        6        3                   0             0            6        3
      Other receipts                                                       1        5                   0             0            1       5
      Benefit payments – trusteed plans                               (5,382) (5,284)                    0            0       (5,382) (5,284)
      Financial assistance payments                                                                  (115)         (97)         (115)    (97)
      Settlements and judgments                                               0             0           0            0             0       0
      Payments for administrative and other expenses                       (428)                      (13)         (11)         (441)   (420)
                                                                                    (409)
      Accrued interest paid on securities purchased                        (310)                       (6)           (7)        (316)      (320)
                                                                                    (313)
    Net cash provided (used) by operating activities (Note 15)         (1,584)       (1,601)           31           51        (1,553)    (1,550)

    INVESTING ACTIVITIES:

      Proceeds from sales of investments                               85,242       71,459        1,216           1,039       86,458     72,498
      Payments for purchases of investments                           (83,079)     (69,163)      (1,248)         (1,089)     (84,327)   (70,252)
      Net change in investment of securities lending collateral          (841)        2,923           0                0        (841)     2,923
      Net change in securities lending payable                            841       (2,923)           0                0         841     (2,923)
    Net cash provided (used) by investing activities                    2,163         2,296         (32)             (50)      2,131      2,246

    Net increase (decrease) in cash and cash equivalents                  579          695             (1)            1         578     696
    Cash and cash equivalents, beginning of year                        4,442        3,747              6             5       4,448   3,752
    Cash and cash equivalents, end of year                        $     5,021      $ 4,442      $       5 $           6     $ 5,026 $ 4,448


    The accompanying notes are an integral part of these financial statements




                                                                      4 
 
 




                                NOTES TO FINANCIAL STATEMENTS

                                     September 30, 2011 and 2010


Note 1: Organization and Purpose
    The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation created
by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to the
provisions of the Government Corporation Control Act. Its activities are defined in ERISA as amended by
the Multiemployer Pension Plan Amendments Act of 1980, the Single-Employer Pension Plan Amendments
Act of 1986, the Pension Protection Act of 1987, the Retirement Protection Act of 1994, the Consolidated
Appropriations Act, 2001, the Deficit Reduction Act of 2005, and the Pension Protection Act of 2006. The
Corporation insures the pension benefits, within statutory limits, of participants in covered single-employer
and multiemployer defined benefit pension plans.
    ERISA requires that PBGC programs be self-financing. ERISA provides that the U.S. Government is
not liable for any obligation or liability incurred by PBGC.
     For financial statement purposes, PBGC divides its business activity into two broad areas –
“Underwriting Activity” and “Financial Activity” – covering both single-employer and multiemployer
program segments. PBGC’s Underwriting Activity provides financial guaranty insurance in return for
insurance premiums (whether actually paid or not). Actual and expected probable losses that result from the
termination of underfunded pension plans are included in this category, as are actuarial adjustments based on
changes in actuarial assumptions, such as mortality. Financial Activity consists of the performance of
PBGC’s assets and liabilities. PBGC’s assets consist of premiums collected from defined benefit plan
sponsors, assets from distress or involuntarily terminated plans that PBGC has insured, and recoveries from
the former sponsors of those terminated plans. PBGC’s future benefit liabilities consist of those future
benefits, under statutory limits, that PBGC has assumed following distress or involuntary terminations.
Gains and losses on PBGC’s investments and changes in the value of PBGC’s future benefit liabilities (e.g.,
actuarial charges such as changes in interest rates and passage of time) are included in this area.
     As of September 30, 2011, the single-employer and multiemployer programs reported net positions of
$(23.3) billion and $(2.8) billion, respectively. The single-employer program had assets of approximately
$79.0 billion offset by total liabilities of $102.2 billion, which include a total present value of future benefits
(PVFB) of approximately $93.0 billion. As of September 30, 2011, the multiemployer program had assets
over $1.7 billion offset by approximately $4.5 billion in present value of nonrecoverable future financial
assistance. Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations for
a significant number of years; however, neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.
     PBGC’s $73.5 billion of total investments (including cash and investment income) represents the largest
component of PBGC’s Statements of Financial Condition combined assets of $80.7 billion at September 30,
2011. This amount of $73.5 billion (as compared to investments under management of $69.8 billion, as
reported on page 32 [of the PBGC FY 2011 Annual Report]) reflects the fact that PBGC experiences a
recurring inflow of trusteed plan assets that have not yet been incorporated into the PBGC investment
program. For total investments (i.e., not the investment program), cash and fixed-income securities ($53.5
billion) represents 73 percent of the total investments, while equity securities ($18.0 billion) represents 25
percent of total investments. Private market assets ($1.5 billion), comprised largely of private equity, private
debt, and real estate, represent 2 percent of the total investments.


                                                         5 
 
 


Single-Employer and Multiemployer Program Exposure
     PBGC’s estimate of the total underfunding in single-employer plans sponsored by companies with credit
ratings below investment grade, and which were classified by PBGC as reasonably possible of termination as
of September 30, 2011, was $227 billion. The comparable estimates of the single-employer program’s
reasonably possible exposure for 2010 and 2009 were $170 billion and $168 billion, respectively. These
estimates are measured as of December 31 of the previous year (see Note 9). For 2011, this exposure is
concentrated in the following sectors: manufacturing (primarily automobile/auto parts, and primary and
fabricated metals), transportation (primarily airlines), services, and wholesale and retail trade.
     PBGC estimates that, as of September 30, 2011, it is reasonably possible that multiemployer plans may
require future financial assistance in the amount of $23 billion. The comparable estimates of the
multiemployer program’s reasonable possible exposure for FY 2010 and FY 2009 were $20 billion and $326
million, respectively. The significant increase from prior years is primarily due to the addition of two large
plans to the reasonably possible inventory. The sponsor of one plan, now with net liability of $16.4 billion, is
in the “transportation, communication, and utilities” industry category; the other, now with net liability of
$5.4 billion, is in the “agriculture, mining, and construction” industry category.
     There is significant volatility in plan underfunding and sponsor credit quality over time, which makes
long-term estimation of PBGC’s expected claims difficult. This volatility, and the concentration of claims in
a relatively small number of terminated plans, have characterized PBGC’s experience to date and will likely
continue. Among the factors that will influence PBGC’s claims going forward are economic conditions
affecting interest rates, financial markets, and the rate of business failures.
    PBGC’s sources of information on plan underfunding are the most recent Section 4010 and PBGC
premium filings, and other submissions to the Corporation. PBGC publishes Table S-49, “Various Measures
of Underfunding in PBGC-Insured Plans,” in its Pension Insurance Data Book where the limitations of the
estimates are fully and appropriately described.
     Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with respect
only to underfunded terminated plans. An underfunded plan may terminate only if PBGC or a bankruptcy
court finds that one of the four conditions for a distress termination, as defined in ERISA, is met or if PBGC
involuntarily terminates a plan under one of five specified statutory tests. The net liability assumed by PBGC
is generally equal to the present value of the future benefits payable by PBGC less amounts provided by the
plan’s assets and amounts recoverable by PBGC from the plan sponsor and members of the plan sponsor’s
controlled group, as defined by ERISA.
     Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance from
PBGC to allow the plan to continue to pay participants their guaranteed benefits. PBGC recognizes
assistance as a loss to the extent that the plan is not expected to be able to repay these amounts from future
plan contributions, employer withdrawal liability or investment earnings. Since multiemployer plans do not
receive PBGC assistance until fully insolvent, financial assistance is almost never repaid; for this reason such
assistance is fully reserved.




                                                        6 
 
 


Note 2: Significant Accounting Policies

Basis of Presentation
     The accompanying financial statements have been prepared in accordance with accounting principles
generally accepted in the United States of America (GAAP). The preparation of the financial statements in
conformity with GAAP requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of the financial
statements and the reported amounts of revenues and expenses during the reporting period. Estimates and
assumptions may change over time as new information is obtained or subsequent developments occur.
Actual results could differ from those estimates.

Recent Accounting Developments
     During FY 2011, PBGC implemented FASB Accounting Standards Update No. 2009-16, Transfers and
Servicing (Topic 860) – Accounting for Transfers of Financial Assets and FASB Accounting Standards Update No.
2011-02, Receivables (Topic 310) – A Creditor’s Determination of Whether a Restructuring is a Troubled Debt
Restructuring. Accounting Standards Update 2009-16 improves the relevance, representations, and
comparability of the information that PBGC provides in its financial reports regarding transfers of financial
assets. See Note 3 for disclosures regarding Securities Lending and Repurchase Agreements. Accounting
Standards Update 2011-02 requires disclosures for loan modifications that constitute troubled debt
restructurings. See Note 7 for disclosures on multiemployer financial assistance notes receivable.
     During FY 2010, PBGC implemented FASB Accounting Standards Update No. 2010-06, Fair Value
Measurements and Disclosures (Topic 820) – Improving Disclosures about Fair Value Measurements (ASU 2010-06) and
FASB Accounting Standards Update No. 2009-12, Fair Value Measurements and Disclosures (Topic 820) –
Investments in Certain Entities That Calculate Net Asset Value per Share (or Its Equivalent), as amended (ASU 2009-
12). ASU 2010-06 added disclosures for significant transfers between Levels 1 and 2; separate presentation
for transfers into and transfers out of Level 3; class of assets and liabilities; and valuation techniques for
Levels 2 and 3. ASU 2009-12 permits, as a practical expedient, a reporting entity to measure the fair value of
an investment on the basis of net asset value (NAV) per share. ASU 2009-12 requires disclosures by class of
NAV investment including the attributes of the investments, such as: the nature of any restrictions on the
investor’s ability to redeem its investments at the measurement date; any unfunded commitments; and the
investment strategies of the investees.

Valuation Method
     A primary objective of PBGC’s financial statements is to provide information that is useful in assessing
PBGC’s present and future ability to ensure that its plan beneficiaries receive benefits when due.
Accordingly, PBGC values its financial assets at estimated fair value, consistent with the standards for
pension plans contained in the FASB Accounting Standards Codification Section 960, Defined Benefit Pension
Plans. PBGC values its liabilities for the present value of future benefits and present value of nonrecoverable
future financial assistance using assumptions derived from annuity prices from insurance companies, as
described in the Statement of Actuarial Opinion. As described in Section 960, the assumptions are “those
assumptions that are inherent in the estimated cost at the (valuation) date to obtain a contract with an
insurance company to provide participants with their accumulated plan benefits.” Also, in accordance with
Section 960, PBGC selects assumptions for expected retirement ages and the cost of administrative expenses
in accordance with its best estimate of anticipated experience.
     The FASB Accounting Standards Codification Section 820, Fair Value Measurements and Disclosures, defines
fair value, establishes a framework for measuring fair value in GAAP, and expands disclosures about fair
value measurements. Section 820 applies to accounting pronouncements that require or permit fair value
measurements. Prior to Section 820, there were different definitions of fair value with limited guidance for


                                                         7 
 
 


applying those definitions in GAAP; additionally, the issuance for applying fair value was dispersed among
many accounting pronouncements that require fair value measurement.

Revolving and Trust Funds
    PBGC accounts for its single-employer and multiemployer programs’ revolving and trust funds on an
accrual basis. Each fund is charged its portion of the benefits paid each year. PBGC includes totals for
both the revolving and trust funds for presentation purposes in the financial statements; however, the single-
employer and multiemployer programs are separate programs by law and, therefore, PBGC also reports them
separately.
     ERISA provides for the establishment of the revolving fund where premiums are collected and held.
The assets in the revolving fund are used to cover deficits incurred by plans trusteed and to provide funds for
financial assistance. The Pension Protection Act of 1987 created a single-employer revolving (7th) fund that
is credited with all premiums in excess of $8.50 per participant, including all penalties and interest charged on
these amounts, and its share of earnings from investments. This fund may not be used to pay PBGC’s
administrative costs or the benefits of any plan terminated prior to October 1, 1988, unless no other amounts
are available.
    The trust funds include assets (e.g., pension plan investments) PBGC assumes (or expects to assume)
once a terminated plan has been trusteed, and related investment income. These assets generally are held by
custodian banks. The trust funds support the operational functions of PBGC.
     The trust funds reflect accounting activity associated with: (1) trusteed plans – plans for which PBGC has
legal responsibility – the assets and liabilities are reflected separately on PBGC’s Statements of Financial
Condition, the income and expenses are included in the Statements of Operations and Changes in Net
Position and the cash flows from these plans are included in the Statements of Cash Flows, and (2) plans
pending termination and trusteeship – plans for which PBGC has begun the process for termination and
trusteeship by fiscal year-end – the assets and liabilities for these plans are reported as a net amount on the
liability side of the Statements of Financial Condition under “Present value of future benefits, net.” For these
plans, the income and expenses are included in the Statements of Operations and Changes in Net Position,
but the cash flows are not included in the Statements of Cash Flows, and (3) probable terminations – plans
that PBGC determines are likely to terminate and be trusteed by PBGC – the assets and liabilities for
these plans are reported as a net amount on the liability side of the Statements of Financial Condition under
“Present value of future benefits, net.” The accrued loss from these plans is included in the Statements of
Operations and Changes in Net Position as part of “Losses from completed and probable terminations.”
The cash flows from these plans are not included in the Statements of Cash Flows. PBGC cannot exercise
legal control over a plan’s assets until it becomes trustee.

Allocation of Revolving and Trust Funds
    PBGC allocates assets, liabilities, income and expenses to the single-employer and multiemployer
programs’ revolving and trust funds to the extent that such amounts are not directly attributable to a specific
fund. Revolving fund investment income is allocated on the basis of each program’s average cash and
investments available during the year while the expenses are allocated on the basis of each program’s present
value of future benefits and present value of nonrecoverable future financial assistance. Revolving fund
assets and liabilities are allocated according to the year-end equity of each program’s revolving funds. Plan
assets acquired by PBGC and commingled at PBGC’s custodian bank are credited directly to the appropriate
fund while the earnings and expenses on the commingled assets are allocated to each program’s trust funds
on the basis of each trust fund’s value, relative to the total value of the commingled fund.




                                                        8 
 
 


Cash and Cash Equivalents
    Cash includes cash on hand and demand deposits. Cash equivalents are investments with original
maturities of one business day and highly liquid investments that are readily convertible into cash within one
business day.

Securities Lending Collateral
     PBGC participates in a securities lending program administered by its custodian bank. The custodian
bank requires collateral that equals 102 percent to 105 percent of the securities lent. The collateral is held by
the custodian bank. The custodian bank either receives cash or non-cash as collateral or returns collateral to
cover mark-to-market changes. Any cash collateral received is invested by PBGC’s investment agent. In
addition to the lending program managed by the custodian bank, some of PBGC’s investment managers are
authorized to invest in securities purchased under resale agreements (an agreement with a commitment by the
seller to buy a security back from the purchaser at a specified price at a designated future date), and securities
sold under repurchase agreements.

Investment Valuation and Income
    PBGC bases market values on the last sale of a listed security, on the mean of the “bid-and-ask” for
nonlisted securities or on a valuation model in the case of fixed income securities that are not actively traded.
These valuations are determined as of the end of each fiscal year. Purchases and sales of securities are
recorded on the trade date. In addition, PBGC invests in and discloses its derivative investments in
accordance with the guidance contained in the FASB Accounting Standards Codification Section 815,
Derivatives and Hedging. Investment income is accrued as earned. Dividend income is recorded on the ex-
dividend date. Realized gains and losses on sales of investments are calculated using first-in, first-out for the
revolving fund and average cost for the trust fund. PBGC marks the plan’s assets to market and any increase
or decrease in the market value of a plan’s assets occurring after the date on which the plan is terminated
must, by law, be credited to or suffered by PBGC.

Securities Purchased Under Resale Agreements
     Securities purchased under resale agreements are agreements whereby the purchaser agrees to buy
securities from the seller, and subsequently sell them back at a pre-agreed price and date. Those greater than
one day are reported under “Fixed maturity securities” as “Securities purchased under resale agreements” in
the Note 3 table entitled “Investments of Single-Employer Revolving Funds and Single-Employer Trusteed
Plans,” on page 56 [of the PBGC FY2011 Annual Report]. Resale agreements that mature in one day are
included in “Cash and cash equivalents” which are reported on the Statements of Financial Condition.

Sponsors of Terminated Plans
     The amounts due from sponsors of terminated plans or members of their controlled group represent the
settled, but uncollected, claims for employer liability (underfunding as of date of plan termination) and for
contributions due their plan less an allowance for estimated uncollectible amounts. PBGC discounts any
amounts expected to be received beyond one year for time and risk factors. Some agreements between
PBGC and plan sponsors provide for contingent payments based on future profits of the sponsors. The
Corporation will report any such future amounts in the period they are realizable. Income and expenses
related to amounts due from sponsors are reported in the underwriting section of the Statements of
Operations and Changes in Net Position. Interest earned on settled claims for employer liability and due and
unpaid employer contributions (DUEC) is reported as “Income: Other.” The change in the allowances for
uncollectible employer liability and DUEC is reported as “Expenses: Other.”




                                                        9 
 
 


Premiums
     Premiums receivable represent the estimated earned but unpaid portion of the premiums for plans that
have a plan year commencing before the end of PBGC’s fiscal year and past due premiums deemed
collectible, including penalties and interest. The liability for unearned premiums represents an estimate of
payments received during the fiscal year that cover the portion of a plan’s year after PBGC’s fiscal year-end.
“Premium income, net” represents actual and estimated revenue generated from defined benefit pension plan
premium filings as required by Title IV of ERISA less bad debt expense for termination premiums that are
reserved at 100 percent, interest, and penalties (see Note 11).

Capitalized Assets
    Capitalized assets include furniture and fixtures, electronic processing equipment and internal-use
software. This includes costs for internally developed software incurred during the application development
stage (system design including software configuration and software interface, coding, testing including parallel
processing phase). These costs are shown net of accumulated depreciation and amortization.

Present Value of Future Benefits (PVFB)
     The PVFB is the estimated liability for future pension benefits that PBGC is or will be obligated to pay
the participants of trusteed plans and the net liability for plans pending termination and trusteeship. The
PVFB liability (including trusteed plans as well as plans pending termination and trusteeship) is stated as the
actuarial present value of estimated future benefits less the present value of estimated recoveries from
sponsors and members of their controlled group and the assets of plans pending termination and trusteeship
as of the date of the financial statements. PBGC also includes the estimated liabilities attributable to plans
classified as probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan
assets). PBGC uses assumptions to adjust the value of those future payments to reflect the time value of
money (by discounting) and the probability of payment (by means of decrements, such as for death or
retirement). PBGC also includes anticipated expenses to settle the benefit obligation in the determination of
the PVFB. PBGC’s benefit payments to participants reduce the PVFB liability.
    The values of the PVFB are particularly sensitive to changes in underlying estimates and assumptions.
These estimates and assumptions could change and the impact of these changes may be material to PBGC’s
financial statements (see Note 6).
     (1) Trusteed Plans–represents the present value of future benefit payments less the present value of
expected recoveries (for which a settlement agreement has not been reached with sponsors and members of
their controlled group) for plans that have terminated and been trusteed by PBGC prior to fiscal year-end.
Assets are shown separately from liabilities for trusteed plans.
     (2) Pending Termination and Trusteeship–represents the present value of future benefit payments less
the plans’ net assets (at fair value) anticipated to be received and the present value of expected recoveries (for
which a settlement agreement has not been reached with sponsors and members of their controlled group)
for plans for which termination action has been initiated and/or completed prior to fiscal year-end. Unlike
trusteed plans, the liability for plans pending termination and trusteeship is shown net of plan assets.
    (3) Settlements and Judgments–represents estimated liabilities related to settled litigation.
     (4) Net Claims for Probable Terminations–In accordance with the FASB Accounting Standards
Codification Section 450, Contingencies, PBGC recognizes net claims for probable terminations with $50
million or more of underfunding, which represent PBGC’s best estimate of the losses, net of plan assets and
the present value of expected recoveries (from sponsors and members of their controlled group) for plans
that are likely to terminate in the future. These estimated losses are based on conditions that existed as of
PBGC’s fiscal year-end. Management believes it is likely that one or more events subsequent to PBGC’s
fiscal year-end will occur, confirming the loss. Criteria used for classifying a specific plan as a probable
termination include, but are not limited to, one or more of the following conditions: the plan sponsor is in

                                                        10 
 
 


liquidation or comparable state insolvency proceeding with no known solvent controlled group member;
sponsor has filed or intends to file for distress plan termination and the criteria will likely be met; or PBGC is
considering the plan for involuntary termination. In addition, management takes into account other
economic events and factors in making judgments regarding the classification of a plan as a probable
termination. These events and factors may include, but are not limited to: the plan sponsor is in bankruptcy
or has indicated that a bankruptcy filing is imminent; the plan sponsor has stated that plan termination is
likely; the plan sponsor has received a going concern opinion from its independent auditors; or the plan
sponsor is in default under existing credit agreement(s).
     In addition, a reserve for small unidentified probable losses and incurred but not reported (IBNR) claims
is recorded based on an actuarial loss development methodology (ratio method) (see Note 6).
     (5) PBGC identifies certain plans as high-risk if the plan sponsor is in Chapter 11 proceedings or the
sponsor’s senior unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody’s respectively. PBGC
specifically reviews each plan identified as high-risk and classifies those plans as probable if, based on
available evidence, PBGC concludes that plan termination is likely (based on criteria described in (4) above).
Otherwise, high-risk plans are classified as reasonably possible.
     (6) In accordance with Section 450, PBGC’s exposure to losses from plans of companies that are
classified as reasonably possible is disclosed in the footnotes. In order for a plan sponsor to be specifically
classified as reasonably possible, it must first have $5 million or more of underfunding, as well as meet
additional criteria. Criteria used for classifying a company as reasonably possible include, but are not limited
to, one or more of the following conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver
pending or outstanding with the Internal Revenue Service; sponsor missed minimum funding contribution;
sponsor’s bond rating is below-investment-grade for Standard & Poor’s (BB+) or Moody’s (Ba1); or sponsor
has no bond rating but the Dun & Bradstreet Financial Stress Score is below the threshold considered to be
investment grade (see Note 9).

Present Value of Nonrecoverable Future Financial Assistance
    In accordance with Title IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the
form of loans, to enable the plans to pay guaranteed benefits to participants and reasonable administrative
expenses. These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of
each plan.
     The present value of nonrecoverable future financial assistance represents the estimated nonrecoverable
payments to be provided by PBGC in the future to multiemployer plans that will not be able to meet their
benefit obligations. The present value of nonrecoverable future financial assistance is based on the difference
between the present value of future guaranteed benefits and expenses and the market value of plan assets,
including the present value of future amounts expected to be paid by employers, for those plans that are
expected to require future assistance. The amount reflects the rates at which, in the opinion of management,
these liabilities (net of expenses) could be settled in the market for single-premium nonparticipating group
annuities issued by private insurers (see Note 7).
     A liability for a particular plan is included in the “Present Value of Nonrecoverable Future Financial
Assistance” when it is determined that the plan is currently, or will likely become in the future, insolvent and
will require assistance to pay the participants their guaranteed benefit. Determining insolvency requires
considering several complex factors, such as an estimate of future cash flows, future mortality rates, and age
of participants not in pay status.
     Each year, PBGC analyzes insured multiemployer plans to identify those plans that are at risk of
becoming claims on the insurance program. Regulatory filings with PBGC and the other ERISA agencies are
important to this analysis and determination of risk. For example, a multiemployer plan that no longer has
contributing employers files a notice of termination with PBGC. In general, if a terminated plan’s assets are
less than the present value of its liabilities, PBGC considers the plan a probable risk of requiring financial
assistance in the future.

                                                        11 
 
 


     PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have employers making
regular contributions for covered work) to determine whether any such plans may be probable or possible
claims on the insurance program. In conducting this analysis each year, PBGC examines plans that are
chronically underfunded, have poor cash flow trends, a falling contribution base, and that may lack a
sufficient asset cushion to weather temporarily income losses. A combination of these factors, or any one
factor that is of sufficient concern, leads to a more detailed analysis of the plan’s funding and the likelihood
that the contributing employers will be willing and able to maintain the plan.

Securities Sold Under Repurchase Agreements
     Securities sold under repurchase agreements are agreements with a commitment by the seller to buy a
security back from the purchaser at a specified price and designated future date. These agreements represent
collateralized short-term loans for which the collateral may be a treasury security, money market instrument,
federal agency security, or mortgage-backed security. On the Statements of Financial Condition, securities
sold under repurchase agreements are reported as a liability, “Securities sold under repurchase agreements” at
the amounts at which the securities will be subsequently reacquired.

Administrative Expenses
     These operating expenses (for either the single-employer or multiemployer insurance programs) are
amounts paid and accrued for services rendered or while carrying out other activities that constitute PBGC’s
ongoing operations, e.g., payroll, contractual services, office space, material and supplies, etc. In FY 2010,
PBGC revised its administrative expense allocation methodology to ensure each insurance program continued
to receive its fair share of administrative expenses. (This resulted in some prior single-employer indirect costs
being moved to the multiemployer program). Beginning in FY 2010, resource activity levels in the
multiemployer program rose significantly in the areas of financial assistance processing, field audits of newly
insolvent plans, additional actuarial analysis of ongoing and terminated multiemployer plans, and responding
to a growing number of technical and legal requests from plan administrators and practitioners. The revised
expense allocation methodology fully captures these and all other administrative expenses attributable to
either the single-employer or multiemployer insurance programs.

Other Expenses
    These expenses represent an estimate of the net amount of receivables deemed to be uncollectible during
the period. The estimate is based on the most recent status of the debtor (e.g., sponsor), the age of the
receivables and other factors that indicate the element of uncollectibility in the receivables outstanding.

Losses from Completed and Probable Terminations
     Amounts reported as losses from completed and probable terminations represent the difference as of the
actual or expected date of plan termination (DOPT) between the present value of future benefits (including
amounts owed under Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related
plan assets and the present value of expected recoveries from sponsors and members of their controlled
group (see Note 12). When a plan terminates, the previously recorded probable net claim is reversed and
newly estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line PVFB - Plans
pending termination and trusteeship (this value is usually different than the amount previously reported), with
any change in the estimate being recorded in the Statements of Operations and Changes in Net Position. In
addition, the plan’s net income from date of plan termination to the beginning of PBGC’s fiscal year is
included as a component of losses from completed and probable terminations for plans with termination
dates prior to the year in which they were added to PBGC’s inventory of terminated plans.

Actuarial Adjustments and Charges (Credits)
    PBGC classifies actuarial adjustments related to insurance based changes in method and the effect of
experience as underwriting activity; actuarial adjustments are the result of the movement of plans from one

                                                        12 
 
 


valuation methodology to another, e.g., nonseriatim (calculating the liability for the group) to
seriatim (calculating separate liability for each person), and of new data (e.g., deaths, revised participant data).
Actuarial charges (credits) related to changes in interest rates and passage of time is classified as financial
activity. These adjustments and charges (credits) represent the change in the PVFB that results from applying
actuarial assumptions in the calculation of future benefit liabilities (see Note 6).

Depreciation and Amortization
     PBGC calculates depreciation on the straight-line basis over estimated useful lives of 5 years for
equipment and 10 years for furniture and fixtures. PBGC calculates amortization for capitalized software,
which includes certain costs incurred for purchasing and developing software for internal use, on the straight-
line basis over estimated useful lives not to exceed 5 years, commencing on the date that the Corporation
determines that the internal-use software is implemented. Routine maintenance and leasehold improvements
(the amounts of which are not material) are charged to operations as incurred. Capitalization of software cost
occurs during the development stage and costs incurred during the preliminary project and post-
implementation stages are expensed as incurred.

Reclassification
    Certain security lending collateral amounts in the FY 2010 financial statements have been reclassified to
be consistent with the FY 2011 presentation. All such changes had no impact on FY 2010 or FY 2011 net
positions.

Note 3: Investments
     Premium receipts are invested through the revolving fund in U.S. Treasury securities. The trust funds
include assets PBGC assumes or expects to assume with respect to terminated plans (e.g., recoveries from
sponsors) and investment income thereon. These assets generally are held by custodian banks. The basis and
market value of the investments by type are detailed below as well as related investment profile data. The
basis indicated is cost of the asset if assumed after the date of plan termination or the market value at date of
plan termination if the asset was assumed as a result of a plan’s termination. PBGC marks the plan’s assets to
market and any increase or decrease in the market value of a plan’s assets occurring after the date on which
the plan is terminated must, by law, be credited to or suffered by PBGC. Investment securities denominated
in foreign currency are translated into U.S. dollars at the prevailing exchange rates at period end. Purchases
and sales of investment securities, income, and expenses are translated into U.S. dollars at the prevailing
exchange rates on the respective dates of the transactions. The portfolio does not isolate that portion of the
results of operations resulting from changes in foreign exchange rates of investments from the fluctuations
arising from changes in market prices of securities held. Such fluctuations are included with the net realized
and unrealized gain or loss on investments. For PBGC’s securities, unrealized holding gains and losses are
both recognized by including them in earnings. Unrealized holding gains and losses measure the total change
in fair value – consisting of unpaid interest income earned or unpaid accrued dividend and the remaining
change in fair value from holding the security.
     To Be Announced (TBA) and Bond Forward transactions are recorded as regular buys and sells of
investments and not as derivatives. TBA (to be announced) is a contract for the purchase or sale of
mortgage-backed securities to be delivered on a future date. The term TBA is derived from the fact that the
actual mortgage-backed security that will be delivered to fulfill a TBA trade is not designated at the time the
trade is made. The securities are to be announced 48 hours prior to the established trade settlement date.
TBAs are issued by FHLMC, FNMA, and GNMA. In accordance with FASB Accounting Standards
Codification Section 815, Derivatives and Hedging, TBA and Bond Forward contracts are deemed regular way
trades as they are completed within the time frame generally established by regulations and conventions in the
market place or by the exchange on which they are executed. Thus, recording of TBA and Bond Forward
contracts recognizes the acquisition or disposition of the securities at the full contract amounts on day one of
the trade.

                                                        13 
 
 


     In prior years, foreign exchange forward contracts and swap contracts were recorded gross of receivables
and payables. Beginning in FY 2010, foreign exchange forwards are included in “Fixed maturity securities”
rather than “Receivables, net – Derivative contracts” or “Derivative contracts” (liabilities). Swaps are netted
rather than recorded at gross levels for the individual contracts as “Receivables, net – Derivative contracts”
and “Derivative contracts” (liabilities). Certain amounts shown as futures for receivables and payables were
offset to reflect a net margin variation for one recently trusteed plan. Bond forwards and TBAs have been
reclassified to “Receivables, net – Sale of securities” and “Due for purchases of securities” from derivative
contracts receivables and payables
    PBGC obtained a recovery in the form of an ownership interest in a new entity, emerging from a chapter
11 bankruptcy proceeding. This interest was valued as private equity and was sold on March 31, 2011 for the
amount of $591.6 million.
     As the following table illustrates, the market value of investments of the single-employer program
increased significantly from September 30, 2010, to September 30, 2011.




                                                      14 
 
INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS
AND SINGLE-EMPLOYER TRUSTEED PLANS
                                                                              September 30,                            September 30,
                                                                                    2011                                   2010
                                                                                         Market                                         Market
(Dollars in millions)                                                         Basis       Value                    Basis                 Value
Fixed maturity securities:
   U.S. Government securities                                              $20,935          $23,775             $19,652                $21,288
   Commercial paper/securities purchased                                           6                6               199                   199
    under resale agreements
   Asset backed securities                                                    5,088            5,150              2,681                  2,733
   Pooled funds
        Domestic                                                                374              393                476                   481
        International                                                              0                0                  0                    0
        Global/other                                                               0                0                  0                    0
   Corporate bonds and other                                                 11,021           11,765              9,250                 10,168
   International securities                                                   5,088            5,168              4,492                  4,920
  Subtotal                                                                   42,512          46,257              36,750                 39,789
Equity securities:
   Domestic                                                                   1,678            1,681              1,760                  1,824
   International                                                              1,067            1,015                940                  1,083
   Pooled funds
        Domestic                                                              6,377            7,990              7,256                 10,778
        International                                                         5,373            7,308              5,765                  8,691
        Global/other                                                               3                3                 15                   17
   Subtotal                                                                  14,498           17,997             15,736                 22,393
Private equity                                                                1,452            1,459              2,169                  2,050
Real estate and real estate investment trusts                                   447              536                441                   459
Insurance contracts and other investments                                       23               22                  22                     17
Total*                                                                     $58,932          $66,271     **      $55,118                $64,708

*Total includes securities on loan at September 30, 2011, and September 30, 2010, with a market value of $6.125 billion and $5.674
billion, respectively.
**This total of $66,271 million of investments at market value represents the single-employer assets only. It differs from the total
investments of $73.50 billion shown on page 32 of this report >)<  3%*& $QQXDO 5HSRUW@ which includes investments of the
PXOWLHPSOR\HU SURJUDP FDVK DQG cash equivalents and accrued investment income.

INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                                              September 30,                            September 30,
                                                                                    2011                                   2010
                                                                                         Market                                         Market
(Dollars in millions)                                                         Basis       Value                    Basis                 Value
Fixed maturity securities:
   U.S. Government securities                                                 $1,533          $1,720              $1,478                $1,607
Equity securities                                                                  0                0                  0                     0
Total                                                                         $1,533          $1,720              $1,478                $1,607




                                                             15
 


        INVESTMENT PROFILE
                                                                               September 30,
                                                                            2011          2010
          Fixed Income Assets
          Average Quality                                                      AA           AA
          Average Maturity (years)                                            14.9         15.5
          Duration (years)                                                     9.6          9.9
          Yield to Maturity (%)                                                3.3          3.8
          Equity Assets
          Average Price/Earnings Ratio                                        12.9          18.4
          Dividend Yield (%)                                                   2.9           2.3
          Beta                                                                1.03          1.03



Derivative Instruments
     PBGC assigns investment discretion and grants specific authority to all of its investment managers to
invest according to specific portfolio investment guidelines established with PBGC. PBGC further limits the
use of derivatives by investment managers through tailored provisions in the investment guidelines with
investment managers consistent with PBGC’s investment policy statement and overall risk tolerance. These
investment managers, who act as fiduciaries to PBGC, determine when it may or may not be appropriate to
utilize derivatives in the portfolio(s) for which they are responsible. Investments in derivatives carry many of
the same risks of the underlying instruments and carry additional risks that are not associated with direct
investments in the securities underlying the derivatives. Furthermore, risks may arise from the potential
inability to terminate or sell derivative positions, although derivative instruments are generally more liquid
than physical market instruments. A liquid secondary market may not always exist for certain derivative
positions at any time. Over-the-counter derivative instruments also involve counterparty risk that the other
party to the derivative instrument will not meet its obligations.
     The use of derivatives by PBGC investment managers is restricted in-so-far as portfolios cannot utilize
derivatives to create leverage in the portfolios for which they are responsible. That is, the portfolios shall not
utilize derivatives to leverage the portfolio beyond the maximum risk level associated with a fully invested
portfolio of physical securities.
     Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency exposures), (2) to
enhance investment returns, and/or (3) as liquid and cost-efficient substitutes for positions in physical
securities. These derivative instruments are not designated as accounting hedges consistent with FASB
Accounting Standards Codification Section 815, Derivatives and Hedging, which requires an active designation as
a prerequisite for any hedge accounting. PBGC utilizes a no hedging designation which results in the gain or
loss on a derivative instrument to be recognized currently in earnings. Derivatives are accounted for at fair
market value in accordance with the FASB Accounting Standards Codification Section 815, Derivatives and
Hedging. Derivatives are marked to market with changes in value reported as a component of financial
income on the Statements of Operations and Changes in Net Position. PBGC presents all derivatives at fair
value on the Statements of Financial Condition.
     During fiscal years 2010 and 2011, PBGC, through its investment managers, invested in investment
products that used various U.S. and non-U.S. derivative instruments including but not limited to: S&P 500
index futures, options, government bond futures, interest rate, credit default and total return swaps and
swaption contracts, stock warrants and rights, debt option contracts, and foreign currency forward and option
contracts. Some of these derivatives are traded on organized exchanges and thus bear minimal counterparty
risk. The counterparties to PBGC’s non-exchange-traded derivative contracts are major financial institutions
subject to ISDA (International Swaps and Derivatives Association, Inc.) master agreements. PBGC monitors
its counterparty risk and exchanges collateral under most contracts to further support performance by its
counterparties.

                                                        16 
 
 


     A futures contract is an agreement between a buyer or seller and an established futures exchange
clearinghouse in which the buyer or seller agrees to take or make a delivery of a specific amount of a financial
instrument at a specified price on a specific date (settlement date). The futures exchanges and clearinghouses
clear, settle, and guarantee transactions occurring through their facilities. Upon entering into a futures
contract, an “initial margin” amount (in cash or liquid securities) of generally one to six percent of the face
value indicated in the futures contract is required to be deposited with the broker. Open futures positions are
marked to market daily. Subsequent payments known as “variation margin” are made or received by the
portfolio dependent upon the daily fluctuations in value of the underlying contract. PBGC maintains
adequate liquidity in its portfolio to meet these margin calls.
     PBGC also invests in forward contracts. A forward foreign currency contract is a commitment to
purchase or sell a foreign currency at the settlement date at a negotiated rate. Foreign currency forward,
futures, and option contracts may be used as a substitute for cash currency holdings, in order to minimize
currency risk exposure to changes in foreign currency exchange rates and to adjust overall currency exposure
to reflect the investment views of the fixed income and equity portfolio managers regarding relationships
between currencies.
     A swap is an agreement between two parties to exchange different financial returns on a notional
investment amount. The major forms of swaps traded are interest rate swaps, credit default swaps, and total
return swaps. PBGC uses swap and swaption (an option on a swap) contracts to adjust exposure to interest
rates, fixed income securities exposure, credit exposure, and equity exposure, and to generate income based
on the investment views of the portfolio managers regarding interest rates, indices and individual issues.
    Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps are often
used to alter exposure to interest rate fluctuations, by swapping fixed rate obligations for floating rate
obligations, or vice versa. The counterparties to the swap agree to exchange interest payments on specific
dates, according to a predetermined formula. The payment flows are usually netted against each other, with
one party paying the difference to the other.
    A credit default swap is a contract between a buyer and seller of protection against pre-defined credit
events. PBGC may buy or sell credit default swap contracts to seek to increase the portfolio’s income or to
mitigate the risk of default on portfolio securities.
    A total return swap is a contract between a buyer and seller of exposures to certain asset classes such as
equities. PBGC may buy or sell total return contracts to seek to increase or reduce the portfolio’s exposure
to certain asset classes.
    An option contract is a contract in which the writer of the option grants the buyer of the option the right
to purchase from (call option) or sell to (put option) the writer a designated instrument at a specified price
within a specified period of time.
     Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a specified time
limit.
    For the fiscal years ended September 30, 2011 and 2010, gains and losses from settled margin calls are
reported in Investment income on the Statements of Operations and Changes in Net Position. Securities and
cash are pledged as collateral for derivative contracts (e.g., futures and swaps) are recorded as a receivable or
payable.




     Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards Codification
Section 815, Derivatives and Hedging. This standard requires the disclosure of fair values of derivative
instruments and their gains and losses in its financial statements of both the derivative positions existing at
period end and the effect of using derivatives during the reporting period. The first table below identifies the

                                                       17 
 
 


location of derivative fair market values (FMV) on the Statements of Financial Condition, as well as the
notional amounts, while the second table identifies the location of derivative gains and losses on the
Statements of Operations and Changes in Net Position as of September 30, 2011, and September 30, 2010.
 

    FAIR VALUES OF DERIVATIVE INSTRUMENTS
                                      Asset Derivative
                                                               September 30, 2011                                    September 30, 2010
                                   Statements of Financial                              Statements of Financial
    (Dollars in millions)          Condition Location         Notional      FMV         Condition Location          Notional       FMV
    Futures                        Derivative Contracts        $3,586        $90        Derivative Contracts         $ 2,211         $2

    Swap agreements
      Interest rate swaps          Investments-Fixed             1,330         (15)     Investments-Fixed              1,086         (7)
      Credit default swaps         Investments-Fixed             2,150           6      Investments-Fixed              2,023         10

    Option contracts               Investments-Fixed               121           1      Investments-Fixed                 38           4

    Forwards - foreign exchange    Investments-Fixed             3,021         26       Investments-Fixed              3,530         (32)
                                   Investments-Equity               45          1       Investments-Equity                 0           0


                                   Liability Derivative
                                                               September 30, 2011                                    September 30, 2010
                                   Statements of Financial                              Statements of Financial
    (Dollars in millions)          Condition Location         Notional     FMV          Condition Location          Notional        FMV
    Futures                        Derivative Contracts        $ 2,148     $ (2)         Derivative Contracts        $ 1,024       $ (1)

    Option contracts               Derivative Contracts          1,202          (4)     Derivative Contracts           2,591         (11)



      Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts, and Note 5 – Fair
      Value Measurements.




                                                                    18 
 
 


    EFFECT OF DERIVATIVE CONTRACTS ON THE STATEMENTS OF OPERATIONS
    AND CHANGES IN NET POSITION
                                                                                                      Amount of Gain or (Loss)
                                                   Location of Gain or                                Recognized in Income on
                                                   (Loss) Recognized                                          Derivatives
                                                   in Income on                                        Sept. 30,       Sept. 30,
    (Dollars in millions)                          Derivatives                                           2011            2010
    Futures
      Contracts in a receivable position           Investment Income-Fixed                                   ($38)              $73
      Contracts in a receivable position           Investment Income-Equity                                     0                 0
      Contracts in a payable position              Investment Income-Fixed                                    177                25
      Contracts in a payable position              Investment Income-Equity                                     0                 0

    Swap agreements
      Interest rate swaps                          Investment Income-Fixed                                      0                58
      Credit default swaps                         Investment Income-Fixed                                     12                19

    Option contracts
      Options purchased (long)                     Investment Income-Fixed                                      3                17
      Options purchased (long)                     Investment Income-Equity                                     0                 0
      Options written (sold short)                 Investment Income-Fixed                                      2                (4)
      Options written (sold short)                 Investment Income-Equity                                     0                 0

    Forward contracts
      Forwards - foreign exchange*                 Investment Income-Fixed                                    (42)              (37)
                                                   Investment Income-Equity                                     1                 0

    Additional information specific to derivative instruments is disclosed in Note 4 - Derivative Contracts and Note 5 - Fair
    Value Measurements.

    * For FY 2010, the value for Forwards - foreign exchange was reclassified from $(23) million to $(37) million, which
    had no impact on the FY 2010 Net loss.

Securities Lending
     PBGC participates in a securities lending program administered by its custodian bank whereby the
custodian bank lends PBGC’s securities to third parties. The custodian bank requires initial collateral from
the borrower that equals 102 percent to 105 percent of the securities lent. Collateral consisting of cash and
non-cash instruments is held by the custodian bank. The custodian bank either requires additional collateral
or returns collateral to cover daily market value changes. The margin call for additional collateral occurs
when levels fall below the initial collateral requirement, except for US government securities and sovereign
debt issued by non-US governments where the margin call may not occur until collateral held falls below
certain levels depending upon the composition of collateral but never lower than 100 percent of the securities
lent. Any cash collateral received is invested. The total value of securities on loan at September 30, 2011, and
September 30, 2010, was $6.125 billion and $5.674 billion, respectively. The increase in loan balances was
mainly attributable to increased allocation and utilization of PBGC’s U.S. corporate bonds and U.S. equities.
U.S. Government securities continue to represent PBGC’s largest amount of assets on loan. The 2011 year-
end lendable balance for U.S. Government securities was approximately $8.2 billion or 33 percent of PBGC’s
overall lendable securities balance; while the September 30, 2010 balance for U.S. Government securities was
approximately $6.1 billion or 29 percent of PBGC’s overall lendable security balance. Utilization levels of
U.S. Government securities on September 30, 2011 was lower than a year earlier, but was offset by the
increased loan balances of U.S. corporate bonds and U.S. equities.

                                                              19 
 
 


      The amount of cash collateral received for these loaned securities was $4.587 billion at September 30,
2011, and $5.427 billion at September 30, 2010. These amounts are recorded as assets and are offset with a
corresponding liability. For lending agreements collateralized by securities, no accompanying asset or liability
is recorded, as PBGC does not sell or re-pledge the associated collateral. For those securities lending
activities that PBGC directs through its custodian manager, the corporation chooses to invest proceeds from
securities lending in the most conservative cash collateral pools available. PBGC had earned income from
securities lending of $14.5 million as of September 30, 2011. Also contributing to PBGC’s securities lending
income is its participation in certain pooled index funds. Net income from securities lending is included in
“Investment income – Fixed” on the Statements of Operations and Changes in Net Position. As of
September 30, 2011, PBGC loaned out $6.125 billion in securities of approximately $24.379 billion of
securities available for securities lending. Of the $6.125 billion market value of securities on loan at
September 30, 2011, approximately 72 percent are lent U.S. government securities.
     PBGC does not have the right by contract or custom to sell or re-pledge non-cash collateral; it is no
longer reported on the Statements of Financial Condition. Non-cash collateral, which consists primarily of
U.S. Treasuries, has recently increased to material levels. In that regard, non-cash collateral previously
included with securities lending cash collateral was reclassified in the amount of $364 million within the FY
2010 Statements of Financial Condition to be consistent with the FY 2011 reporting. Likewise corresponding
cash flow changes have been incorporated in the FY 2010 Statements of Cash Flows. All such changes have
no impact on FY 2010 or FY 2011 net positions.
 

Note 4: Derivative Contracts
    PBGC’s derivative financial instruments are recorded at fair value and are included on the Statements of
Financial Condition as investments and derivative contracts. In prior years, foreign exchange forward
contracts and swap contracts were recorded gross of receivables and payables. Beginning in FY 2010, foreign
exchange forwards are included in “Fixed maturity securities” rather than “Receivables, net – Derivative
contracts” or “Derivative contracts” (liabilities). Swaps are netted rather than recorded at gross levels for the
individual contracts as “Receivables, net – Derivative contracts” and “Derivative contracts” (liabilities).
Certain amounts shown as futures for receivables and payables were offset to reflect a net margin variation
for one recently trusteed plan. Bond forwards and TBAs have been reclassified to “Receivables, net – Sale of
securities” and “Due for purchases of securities” from derivative contracts receivables and payables.




     Amounts in the table below represent the derivative contracts in a receivable position at financial
statement date. Collateral deposits of $81 million, which represent cash paid as collateral on certain derivative
contracts, are shown.




                                                       20 
 
 


DERIVATIVE CONTRACTS
                                                                            September 30,                        September 30,
(Dollars in millions)                                                              2011                                2010
Open receivable trades on derivatives:
    Collateral deposits                                                                $81                                  $76
    Futures contracts                                                                   90                                    2
    Interest rate swaps                                                                  0                                    0
    Credit default swaps                                                                 7                                    0
Total                                                                                 $178                                  $78



    Amounts in the Derivative Contracts table below represent derivative contracts in a payable position at
financial statement date which PBGC reflects as a liability. Collateral deposits of $167 million, which
represent cash received as collateral on certain derivative contracts, are included.


DERIVATIVE CONTRACTS
                                                                            September 30,                        September 30,
(Dollars in millions)                                                              2011                                2010
Open payable trades on derivatives:
    Collateral deposits                                                               $167                                  $55
    Futures contracts                                                                    2                                    1
    Interest rate swaps                                                                  0                                    0
    Credit default swaps                                                                 0                                    0
    Options-fixed income                                                                 4                                   11
Total                                                                                 $173                                  $67




Note 5: Fair Value Measurements
    Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards Codification
Section 820, Fair Value Measurements and Disclosures. The standard does not require the measurement of
financial assets and liabilities at fair value, but provides a consistent definition of fair value and establishes a
framework for measuring fair value in accordance with GAAP. The standard is intended to increase
consistency and comparability in, and disclosures about, fair value measurements, by providing users with
better information about the extent to which fair value is used to measure financial assets and liabilities, the
inputs used to develop those measurements and the effect of the measurements, if any, on financial
condition, results of operations, liquidity and capital.
     Section 820 defines fair value as the price that would be received to sell an asset or paid to transfer a
liability (an “exit price”) in the principal or most advantageous market for an asset or liability in an orderly
transaction between market participants on the measurement date. When PBGC measures fair value for its
financial assets and liabilities, PBGC considers the principal or most advantageous market in which PBGC
would transact, and PBGC considers assumptions that market participants would use when pricing the asset
or liability. When possible, PBGC looks to active and observable markets to measure the fair value of
identical, or similar, financial assets or liabilities. When identical financial assets and liabilities are not traded in
active markets, PBGC looks to market observable data for similar assets and liabilities. In some instances,
certain assets and liabilities are not actively traded in observable markets, and as a result PBGC uses
alternative valuation techniques to measure their fair value.



                                                           21 
 
 


    In addition, Section 820 establishes a hierarchy for measuring fair value. The fair value hierarchy is based
on the observability of inputs to the valuation of a financial asset or liability as of the measurement date. The
standard requires the recognition of trading gains or losses related to certain derivative transactions whose fair
value has been determined using unobservable market inputs.
     PBGC believes that its valuation techniques and underlying assumptions used to measure fair value
conform to the provisions of Section 820. PBGC has categorized the financial assets and liabilities that it
carries at fair value in the Statements of Financial Condition based upon the standard’s valuation hierarchy.
The hierarchy gives the highest priority to quoted prices in active markets for identical assets or liabilities
(Level 1); next highest priority to pricing methods with significant observable market inputs (Level 2); and the
lowest priority to significant unobservable valuation inputs (Level 3).
    If the inputs used to measure a financial asset or liability cross different levels of the hierarchy,
categorization is based on the lowest level input that is significant to the fair value measurement.
Management’s assessment of the significance of a particular input to the overall fair value measurement of a
financial asset or liability requires judgment, and considers factors specific to that asset or liability.
    The three levels are described below:
    Level 1 - Financial assets and liabilities whose values are based on unadjusted quoted prices for identical
assets or liabilities in an active market. PBGC’s level 1 investments primarily included are exchange-traded
equity securities and certain U.S. government securities.
     Level 2 - Financial assets and liabilities whose values are based on quoted prices for similar assets and
liabilities in active markets, and inputs that are observable for the asset or liability, either directly or indirectly,
for substantially the full term of the asset or liability. Level 2 inputs to the valuation methodology include the
following:
         a.   Quoted prices for similar assets or liabilities in active markets – included are cash equivalents,
              securities lending collateral, U.S. government securities, asset backed securities, fixed foreign
              investments, corporate bonds, repos, bond forwards, and swaps;
         b. Quoted prices for identical or similar assets or liabilities in non-active markets – included are
            corporate stock, pooled funds fixed income, pooled funds equity, and foreign investments
            equity;
         c.   Pricing models whose inputs are observable for substantially the full term of the asset or liability
              – included are insurance contracts and bank loans; and
         d. Pricing models whose inputs are derived principally from or corroborated by observable market
            information through correlation or other means for substantially the full term of the asset or
            liability.
     Level 3 - Financial assets and liabilities whose values are based on prices or valuation techniques that
require inputs that are both unobservable in the market and significant to the overall fair value measurement.
These inputs reflect management’s judgment about the assumptions that a market participant would use in
pricing the asset or liability, and based on the best available information, some of which is internally
developed. We include instruments whose values are based on a single source such as a broker, pricing
service, or dealer which cannot be corroborated by recent market transactions. These include fixed maturity
securities such as corporate bonds that are comprised of securities that are no longer traded on the active
market and/or not managed by any asset manager. Equity securities such as corporate stocks are also
included in this level, and are comprised of securities that are no longer traded on the active market and/or
not managed by any asset manager. Private equity, real estate funds, and separate accounts that invest
primarily in U.S. commercial real estate, are valued based on each underlying investment within the
fund/account incorporating valuations that consider the evaluation of financing and sale transactions with
third parties, expected cash flows and market-based information, including comparable transactions, and
performance multiples, among other factors.

                                                          22 
 
 


     The assets and liabilities that PBGC carries at fair value are summarized by the three levels in Section 820
in the following table. The fair value of the asset or liability represents the price that would be received to sell
the asset or paid to transfer the liability (an exit price).




                                                        23 
 
       


FAIR VALUE MEASUREMENTS ON A RECURRING BASIS AS OF SEPTEMBER 30, 2011
                                                                      Pricing Methods      Pricing Methods         Total Net
                                                                      with Significant     with Significant      Carrying Value
                                            Quoted Market                Observable         Unobservable         in Statements
                                            Prices in Active               Market               Market            of Financial
                                            Markets (Level 1)         Inputs (Level 2)     Inputs (Level 3)        Condition
(Dollars in millions)
Assets
Cash and cash equivalents                        $ 427                     $ 4,599                                    $ 5,026
Securities lending collateral                                                4,587                                       4,587
Investments:
  Fixed maturity securities
    U.S. Government securities                                              25,495
    Commercial paper/securities
      purchased under resale
      agreements                                                                6
    Asset backed/Mortgage backed
     securities                                                             5,150
    Pooled funds
       Domestic                                                                50                    343
       International
       Global/other
    Corporate bonds and other                          1                   11,764                      0 ***
    International securities                          37                    5,131                      0
  Total fixed maturity securities                     38                   47,596                    343               47,977
 Equity securities:
    Domestic                                       1,607                      66                        8
    International                                  1,014                       0 ***                    1
    Pooled funds
       Domestic                                        0 ***                7,990
       International                                                        7,308
       Global/other                                   2                         1                      0
 Total equity securities                          2,623                    15,365                      9               17,997
 Private equity                                                                                    1,459                1,459
 Real estate and real estate
   investment trusts                                 12                        1                     523                  536
 Insurance contracts and other
   Investments                                                                22                                              22
Receivables:
 Derivative contracts*                                90                      88                                          178
Liabilities
Payables:
 Derivative contracts**                                6                      167                                             173
           * Derivative contracts receivables are comprised of open receivable trades on futures, swaps, and collateral
           deposits. See the Derivative Contracts table under Note 4.
           ** Derivative contracts payables are comprised of open payable trades on futures, swaps, options, and collateral
           deposits. See the Derivative Contracts table under Note 4.
           *** Less than $500,000




                                                                24 
       
       


           As of September 30, 2011, there were no significant transfers between Level 1 and Level 2. The end of
      the reporting period is the date used to recognize transfers between levels.


CHANGES IN LEVEL 3 ASSETS AND LIABILITIES MEASURED AT FAIR VALUE ON A RECURRING BASIS
FOR THE YEAR ENDED SEPTEMBER 30, 2011

                                                                                                                         Change in
                                               Total
                                                                                                                         Unrealized
                                             Realized
                                                             Purchases,                                                Gains (Losses)
                               Fair Value       and                                                     Fair Value
                                                             Issuances     Transfers     Transfers                       Related to
                                   at       Unrealized                                                      at
 (Dollars in millions)                                           and         Into         Out of                         Financial
                               September       Gains                                                    September
                                                            Settlements,    Level 3       Level 3                       Instruments
                                30, 2010      (Losses)                                                   30, 2011
                                                                 Net                                                      held at
                                            included in
                                                                                                                       September 30,
                                              Income
                                                                                                                          2011 **
Assets:
Pooled funds (fixed)              $ 331        $12                                                      $ 343               $ 12
Corporate bonds and
  other *                             1           (1)                                                         0***             (1)
Domestic/Int’l equity *               5            0***              4         0***           0***            9                (1)
Private equity                    2,050          13               (604)                       0***        1,459              166


Real estate &                       450          73                                                         523               73
real estate investment
trusts

Other *                               0                                                                        0
      *assets which are not actively traded in the market place
      ** amounts included in the Total Realized and Unrealized Gains (Losses) column. Please do not use the data in this
      column; it solely represents unrealized gains and losses and cannot be derived from other columns from this table.
      *** less than $500,000




                                                                  25 
       
 


    Pursuant to FASB Accounting Standards Codification Section 820, Fair Value Measurements and Disclosures
– Investments in Certain Entities That Calculate Net Asset Value per Share; Fair Value Measurement and Disclosures,
additional disclosures for Investments priced at Net Asset Value are discussed below.


INVESTMENTS IN CERTAIN ENTITIES THAT CALCULATE NET ASSET VALUE PER SHARE (OR ITS
EQUIVALENT) FOR THE YEAR ENDED SEPTEMBER 30, 2011
                                                     Redemption
                    Fair Value       Unfunded       Frequency (If     Redemption
                   (in millions)   Commitments 1      Currently       Notice Period
                                                       Eligible)
Real estate (a)                     $    536                            $158                n/a                     n/a
Private equity (b)                     1,459                             391                n/a                     n/a
Pooled funds (c)                      15,694                               0                n/a                     n/a
Total                               $ 17,689                            $549
 
1 Unfunded        amounts include recallable distributions. A substantial portion of the unfunded commitments is unlikely to
be called.

             a.    This class includes 151 real estate investments that invest primarily in U.S. commercial real estate, and to a
                   lesser extent, U.S. residential real estate. The fair value of each individual investment in this class has been
                   estimated using the net asset value of the PBGC's ownership interest in partners' capital. Generally, these
                   investments do not have redemption provisions. Distributions from each fund will be received as the
                   underlying assets of the fund will be liquidated over the next ten years or so. In addition, distributions will
                   also include any periodic income distributions received. No fund investments in this class are planned to
                   be sold. Individual portfolio investments will be sold over time, however, those have not yet been
                   determined.
             b.    This class includes 526 private market investments that invest primarily in U.S. buyout and U.S. venture
                   capital funds. A small number of those focus on natural resources. These investments do not have
                   redemption provisions. Instead, the nature of the investments in this class is that distributions are received
                   through the liquidation of the underlying assets of the funds. If these investments were held, it is
                   estimated that the underlying assets of the fund would be liquidated over the next twelve years. However,
                   the individual investments that will be sold have not yet been determined. The fair value of each individual
                   investment has been estimated using the net asset value of the PBGC's ownership interest in partners'
                   capital.
             c.    This class includes investments in unit trusts that are intended to match returns of domestic and
                   international indices. Units reflect a pro-rata share of the fund’s investments. The per unit net asset value
                   is determined each business day based on the fair value of the fund’s investments. Issuances and
                   redemptions are possible daily when a per unit value is determined and are based upon the closing per unit
                   net asset value.
 

Note 6: Present Value of Future Benefits
    The following table summarizes the actuarial adjustments, charges and credits that explain how the
Corporation’s single-employer program liability for the present value of future benefits changed for the years
ended September 30, 2011 and 2010.
    For FY 2011, PBGC used a 20-year select interest factor of 4.31% followed by an ultimate factor of
4.26% for the remaining years. In FY 2010, PBGC used a 25-year select interest factor of 4.41% followed by
an ultimate factor of 4.51% for the remaining years. These factors were determined to be those needed,
given the mortality assumptions, to continue to match the survey of annuity prices provided by the American

                                                                  26 
 
 


Council of Life Insurers (ACLI). Both the interest factor and the length of the select period may vary to
produce the best fit with these prices. The prices reflect rates at which, in the opinion of management, the
liabilities (net of administrative expenses) could be settled in the market at September 30, for the respective
year, for single-premium nonparticipating group annuities issued by private insurers. Many factors, including
Federal Reserve policy, changing expectations about longevity risk, and competitive market conditions may
affect these rates.
     Beginning in FY 2006, and ending with FY 2008, a Barclays Capital Aggregate Bond Index (formerly
Lehman Long Corporate A and Higher Bond index) as of the last trading day of the month was used and was
applied to both the select and ultimate factors instead of the select factor only as had been prior practice.
Interest factors beginning in FY 2006 are now rounded to two decimal places instead of one so as to be able
to state to the level of a single basis point.
    In late 2008, significant volatility in the bond markets led PBGC to research the relationship between
quarterly bond yields and annuity prices. As a result of this research, PBGC ended the use of a bond index in
the determination of interest factors. The quarterly interest factors now incorporate the most recent quarterly
annuity price survey data. Previously, the price survey data was used only once a year with the bond index
then applied to determine subsequent interest factors during the year.
    Based on a 2011 study of PBGC’s participant mortality, new healthy lives mortality tables have been
adopted for the June 30, 2011 and subsequent valuations. For June 30, 2011, PBGC used the Retirement
Plan-2000 Combined Healthy (RP-2000 CH) Male and Female Tables, each set back one year and projected
21 years to 2021 using Scale AA. The number of years that PBGC projects the mortality table reflects the
number of years from the 2000 base year of the table to the end of the fiscal year (11 years in FY 2011) plus
PBGC’s calculated duration of its liabilities (10 years in FY 2011). The study also recommended changes in
the mortality assumptions for disabled lives which will also be implemented in the June 30, 2011 and
subsequent valuations. For September 30, 2010, PBGC used 1994 Group Annuity Mortality (GAM) 94 Static
Table set forward one year, projected 26 years to 2020 using scale AA.
    The ACLI survey of annuity prices, when combined with the mortality table, provides the basis for
determining the interest factors used in calculating the PVFB. The insurance annuity prices, when combined
with the stronger mortality table (i.e., longer life expectancy), result in a higher interest factor than what we
would have used with the previous mortality table.
    The reserve for administrative expenses in the FY 2006 valuations was assumed to be 1.18 percent of
benefit liabilities plus additional reserves for cases in which plan asset determinations, participant database
audits and actuarial valuations were not yet complete. As the result of an updated study, the expense reserve
factor beginning with FY 2007 has changed to 1.37 percent and carried forward to FY 2008, FY 2009, FY
2010, and FY 2011. The factors to determine the additional reserves were also re-estimated and continue to
be based on plan milestone completion as well as case size, number of participants and time since trusteeship.
    The present values of future benefits for trusteed multiemployer plans for FY2011 and 2010 reflect the
payment of assistance and the changes in interest and mortality assumptions, the passage of time and the
effect of experience.
    The resulting liability represents PBGC’s best estimate of the measure of anticipated experience under
these programs.




                                                       27 
 
 


RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS
FOR THE YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                                                                                            September 30,

    (Dollars in millions)                                                                 2011                                         2010
    Present value of future benefits, at beginning
          of year -- Single-Employer, net                                                        $90,022                                      $83,035
      Estimated recoveries, prior year                                                               107                                          175
      Assets of terminated plans pending trusteeship, net, prior year                               542                                           820
      Present value of future benefits at beginning of year, gross                                90,671                                       84,030
      Settlements and judgments, prior year                                                          (55)                                          (58)
      Net claims for probable terminations, prior year                                            (1,445)                                      (1,870)
      Actuarial adjustments -- underwriting:
        Changes in method and assumptions                                   $ 1,881                                         $ (1,286)
        Effect of experience                                                   (209)                                              96
        Total actuarial adjustments -- underwriting                           1,672                                           (1,190)
      Actuarial charges -- financial:
        Passage of time                                                          3,880                                        4,215
        Change in interest rates                                                 1,009                                        6,396
        Total actuarial charges -- financial                                     4,889                                       10,611
      Total actuarial charges, current year                                                        6,561                                       9,421
      Terminations:
        Current year                                                             2,363                                        3,130
        Changes in prior year                                                     (206)                                         (15)
        Total terminations                                                                         2,157                                        3,115
      Benefit payments, current year*                                                             (5,340)                                      (5,467)
      Estimated recoveries, current year***                                                         (205)                                        (107)
      Assets of terminated plans pending trusteeship, net, current year                             (280)                                        (542)
      Settlements and judgments, current year                                                         56                                           55
      Net claims for probable terminations:
        Future benefits**                                                       1,379                                        3,073
        Estimated plan assets and recoveries from sponsors                       (546)                                      (1,628)
        Total net claims, current year                                                              833                                        1,445
    Present value of future benefits,
      at end of year -- Single-Employer, net                                                      92,953                                      90,022
    Present value of future benefits,
      at end of year -- Multiemployer                                                                  1                                        1
    Total present value of future benefits, at end of year, net                                  $92,954                                  $90,023

 

* The benefit payments of $5,340 million and $5,467 million include $(42) million in 2011 and $182 million in 2010 for
benefits paid from plan assets by plans prior to trusteeship.
** The future benefits for probable terminations of $1,379 million and $3,073 million for fiscal years 2011 and 2010,
respectively, include $288 million and $253 million, respectively, for probable terminations not specifically identified and
$1,091 million and $2,820 million, respectively, for specifically identified probables.
***United Continental Holdings, Inc (UAL) is obligated under an indenture to issue to PBGC up to $500
million aggregate principal amount of 8% Contingent Senior Notes (8% Notes) in up to eight equal tranches of
$62.5 million if certain UAL earnings related triggering events occur. As of June 30, 2011 the first triggering
event under the indenture occurred, and UAL is obligated to issue one tranche of $62.5 million of the 8% Notes
no later than February 15, 2012.




                                                                          28 
 
 


    The following table details the assets that make up single-employer terminated plans pending termination
and trusteeship:
 ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION
 AND TRUSTEESHIP, NET
                                                              September 30, 2011                                   September 30, 2010
                                                              Basis      Market                                    Basis       Market
 (Dollars in millions)                                                    Value                                                  Value
 U.S. Government securities                                   $ 0           $ 0                                    $ -           $ -
 Corporate and other bonds                                     148           148                                    353           353
 Equity securities                                             137           139                                    270           270
 Private equity                                                  0             0                                      0             0
 Insurance contracts                                             7             7                                      0             0
 Other                                                         (19)          (14)                                   (81)          (81)

 Total, net                                                    $273               $280                             $542             $542




Net Claims for Probable Terminations
     Factors that are presently not fully determinable may be responsible for these claim estimates differing
from actual experience. Included in net claims for probable terminations is a provision for future benefit
liabilities for plans not specifically identified.
    The values recorded in the following reconciliation table have been adjusted to the expected dates of
termination.
RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                         September 30,
(Dollars in millions)                                                   2011                                       2010
Net claims for probable terminations, at beginning of year                     $ 1,445                                    $1,870
New claims                                                    $ 545                                      $ 337
Actual terminations                                           (474)                                        (596)
Deleted probables                                              (718)                                      (376)
Change in benefit liabilities                                    35                                         186
Change in plan assets                                             0                                          24
Loss (credit) on probables                                                       (612)                                      (425)
Net claims for probable terminations, at end of year                            $ 833                                     $1,445
 
 
       The following table itemizes the single-employer probable exposure by industry:
PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                                              FY 2011                     FY 2010
Wholesale and Retail Services                                      $ 602                        $    -
Health Care                                                          231                           193
Manufacturing                                                          -                           911
Services                                                               -                           341
Total                                                              $ 833                        $1,445
 
       For further detail, see Note 2 subpoint (4).




                                                             29 
 
 


    The following table shows what has happened to plans classified as probables. This table does not
capture or include those plans that were not previously classified as probable before they terminated.


ACTUAL PROBABLES EXPERIENCE
As Initially Recorded Beginning in 1987
(Dollars in millions)                                            Status of Probables from 1987-2010 at September 30, 2011
                                                           Number of           Percent of                   Net           Percent of
Beginning in 1987, number of plans reported as Probable:       Plans                Plans                 Claim           Net Claim
  Probables terminated                                           362                79%                $28,471                 73%
     Probables not yet terminated or deleted                        0                0                        0                 0
     Probables deleted                                            94                21                  10,335                27
     Total                                                       456              100%                 $38,806               100%
 

 

Note 7: Multiemployer Financial Assistance
    PBGC provides financial assistance to multiemployer defined benefit pension plans in the form of loans.
Since these loans are not generally repaid, an allowance is set up to the extent that repayment of these loans is
not expected.


    NOTES RECEIVABLE MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                         September 30,                                  September 30,
    (Dollars in millions)                                                     2011                                           2010

    Gross balance at beginning of year                                          $484                                                $387
    Financial assistance payments - current year                                 115                                                   97
    Write-offs related to settlement agreements                                    0                                                    0
    Subtotal                                                                     599                                                  484
    Allowance for uncollectible amounts                                         (599)                                                (484)
    Net balance at end of year                                                  $ 0                                                 $ 0


    The losses from financial assistance reflected in the Statements of Operations and Changes in Net
Position include period changes in the estimated present value of nonrecoverable future financial assistance.
    As of September 30, 2011, the corporation expects 135 multiemployer plans will exhaust plan assets and
need financial assistance from PBGC to pay guaranteed benefits and plan administrative expenses. The
present value of nonrecoverable future financial assistance for these 135 plans is $4.475 billion. The 135
plans fall into three categories – plans currently receiving financial assistance; plans that have terminated but
have not yet started receiving financial assistance from PBGC; and ongoing plans (not terminated) that the
corporation expects will require financial assistance in the future.




                                                                   30 
 
 


MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                September 30, 2011                  September 30, 2010
                                                            Number of         Net                 Number of         Net
(Dollars in millions)                                        Plans          Liability               Plans         Liability

Plans currently receiving financial assistance                       41      $1,232                      41         $1,179


Plans that have terminated but have not yet started                  60        1,487                     51          1,067
receiving financial assistance

Ongoing plans (not terminated) that the corporation                  34        1,756                     29            784
expects will require financial assistance in the future

Total                                                               135      $4,475                     121         $3,030


     Of the 135 plans:

        • 41 have exhausted plan assets and are currently receiving financial assistance payments from PBGC.
          The present value of future financial assistance payments for these insolvent 41 plans is $1.232
          billion.

        • 60 plans have terminated but have not yet started receiving financial assistance payments from
          PBGC. Terminated multiemployer plans no longer have employers making regular contributions for
          covered work, though some plans continue to receive withdrawal liability payments from withdrawn
          employers. In general, PBGC records a loss for future financial assistance for any underfunded
          multiemployer plan that has terminated. The present value of future financial assistance payments to
          these 60 terminated plans is $1.487 billion.

        • 34 plans are ongoing (i.e., have not terminated), but PBGC expects these plans will exhaust plan
          assets and need financial assistance within 10 years. In this analysis, PBGC takes into account the
          current plan assets, future income to the plan, the statutory funding rules, and the possibility for
          future increases in contributions. The present value of future financial assistance payments for these
          34 ongoing plans is $1.756 billion.
 

PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                                 September 30,                September 30,
(Dollars in millions)                                                                 2011                          2010

Balance at beginning of year                                                            $3,030                      $2,296
Changes in allowance:
 Losses (credits) from financial assistance                                              1,560                         831
 Financial assistance granted
   (previously accrued)                                                                   (115)                        (97)
Balance at end of year                                                                  $4,475                      $3,030




                                                          31 
 
 


Note 8: Accounts Payable and Accrued Expenses
    The following table itemizes accounts payable and accrued expenses reported in the Statements of
Financial Condition:
ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                   September 30,                September 30,
(Dollars in millions)                                                      2011                        2010
Annual leave                                                               $  8                        $ 8
Other payables and accrued expenses                                          62                          95
Accounts payable and accrued expenses                                      $ 70                        $103




                                                    32 
 
 


Note 9: Reasonably Possible Contingencies
    Single-employer plans sponsored by companies whose credit quality is below investment grade pose a
greater risk of being terminated. In addition, there are some multiemployer plans that may require future
financial assistance. The estimated unfunded vested benefits exposure amounts disclosed below represent the
Corporation’s estimates of the reasonably possible exposure to loss in these plans given the inherent
uncertainties about these plans.
     In accordance with the FASB Accounting Standards Codification Section 450, Contingencies, PBGC
classified a number of these companies as reasonably possible rather than probable terminations as the
sponsors’ financial condition and other factors did not indicate that termination of their plans was likely.
This classification was done based upon information about the companies as of September 30, 2011.
     The estimate of unfunded vested benefits exposure to loss for the single-employer plans of these
companies was measured as of December 31, 2010. The reasonably possible exposure to loss in these plans
was $227 billion for FY 2011. This is an increase of $57 billion from the reasonably possible exposure of
$170 billion in FY 2010. This reasonably possible exposure increased primarily due to the growth in the
number of companies meeting the reasonable possible criteria (see Note 2), and the decrease in the interest
rate used for valuing liabilities. Although high asset returns for calendar year 2010 partially offset the increase
in liabilities, the net result was an increase in unfunded liabilities.
     The estimate of unfunded vested benefits exposure to loss is not based on PBGC-guaranteed benefit
levels, since data is not available to determine an estimate at this level of precision. PBGC calculated this
estimate, as in previous years, by using the most recent data available from filings and submissions to the
Corporation for plan years ended on or after December 31, 2009. The Corporation adjusted the value
reported for liabilities to December 31, 2010, using a select rate of 3.93% for the first 20 years and 4.33%
thereafter and applying the expense load as defined in 29 CFR Part 4044, Appendix C. The rates were
derived in conjunction with the 1994 Group Annuity Mortality Static Table (with margins) projected to 2020
using Scale AA to approximate annuity prices as of December 31, 2010. The underfunding associated with
these plans could be substantially different at September 30, 2011, because of the economic conditions that
existed between December 31, 2010 and September 30, 2011. The Corporation did not adjust the estimate
for events that occurred between December 31, 2010, and September 30, 2011.
       The following table by industry itemizes the single-employer reasonably possible exposure to loss:


 REASONABLY POSSIBLE EXPOSURE TO LOSS BY INDUSTRY
(PRINCIPAL CATEGORIES)
(Dollars in millions)                                                        FY 2011    FY 2010
Manufacturing *                                                             $120,690   $101,888
Transportation, Communication and Utilities **                                50,133     30,178
Services                                                                      25,879     15,356
Wholesale and Retail Trade                                                    12,218     12,844
Health Care                                                                    8,818      3,985
Finance, Insurance, and Real Estate                                            5,953      2,840
Agriculture, Mining, and Construction                                          3,426      2,653
Total                                                                       $227,117   $169,744
 
* Primarily automobile/auto parts and primary and fabricated metals

** Primarily airline

     PBGC included amounts in the liability for the present value of nonrecoverable future financial assistance
(see Note 7) for multiemployer plans that PBGC estimated may require future financial assistance. In
addition, PBGC currently estimates that it is reasonably possible that other multiemployer plans may require
future financial assistance in the amount of $23 billion, due primarily to two large plans. PBGC obtained an
independent actuarial analysis of the solvency of these two large plans in both FY 2010 and FY 2011.

                                                                      33 
 
 


     The Corporation calculated the future financial assistance liability for each multiemployer plan identified
as probable (see Note 7), or reasonably possible as the present value of guaranteed future benefit and expense
payments net of any future contributions or withdrawal liability payments as of the later of September 30,
2011, or the projected (or actual, if known) date of plan insolvency, discounted back to September 30, 2011.
The Corporation’s identification of plans that are likely to require such assistance and estimation of related
amounts required consideration of many complex factors, such as an estimate of future cash flows, future
mortality rates, and age of participants not in pay status. These factors are affected by future events,
including actions by plans and their sponsors, most of which are beyond the Corporation’s control.

Note 10: Commitments
    PBGC leases its office facility under a commitment that began on January 1, 2005, and expires December
10, 2019. This lease provides for periodic rate increases based on increases in operating costs and real estate
taxes over a base amount. In addition, PBGC is leasing space for field benefit administrators. These leases
began in 1996 and expire in 2014. The minimum future lease payments for office facilities having
noncancellable terms in excess of one year as of September 30, 2011, are as follows:

COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                            Operating
September 30,                                                            Leases
2012                                                                         $ 18.8
2013                                                                           18.0
2014                                                                           17.7
2015                                                                           17.6
2016                                                                           17.0
Thereafter                                                                     39.0
Minimum lease payments                                                       $128.1
 
      Lease expenses were $18.3 million in 2011 and $18.4 million in 2010.

Note 11: Premiums
     For both the single-employer and multiemployer programs, ERISA provides that PBGC shall continue to
guarantee basic benefits despite the failure of a plan administrator to pay premiums when due. PBGC
assesses interest and penalties on the unpaid portion of or underpayment of premiums. Interest continues to
accrue until the premium and the interest due are paid. For plan year 2010 the flat-rate premiums for single-
employer pension plans was $35 per participant and for multiemployer plans, $9 per participant. For plan
year 2011, per participant rates were $35 for single-employer plans and $9 for multiemployer plans. PBGC
recorded net premium income of $2.164 billion that consisted primarily of $1.235 billion in flat-rate
premiums, $929 million in variable-rate premiums, and $202 million in termination premiums offset by a bad
debt expense of $207 million. Bad debt expenses include a reserve for uncollectible premium receivables
consisting of termination premiums that are reserved conservatively at 100 percent, as well as some write-off
of interest and penalties. Net premium income for fiscal year 2010 was $2.324 billion and consisted primarily
of approximately $1.288 billion in flat-rate premiums, $1.030 billion in variable-rate premiums, and $237
million in termination premiums offset by a bad debt expense of $244 million. The termination premium
applies to certain plan terminations occurring after 2005. If a pension plan terminates in a distress
termination pursuant to ERISA section 4041(c)(2)(B)(ii) or (iii), or in a PBGC-initiated termination under
ERISA section 4042, the plan sponsor and its controlled group are liable to PBGC for a termination
premium at the rate of $1,250 per plan participant per year for three years.


      The following table presents a year-to-year comparison of key premium information.

                                                      34 
 
 


PREMIUMS

    (Dollars in millions)                                            September 30, 2011                September 30, 2010

    Flat Rate Premium:
    Single-Employer                                                           $1,143                          $1,194
    Multiemployer                                                                 92                              94
    Total Flat Rate Premium                                                    1,235                           1,288
    Variable Rate Premium                                                       929                            1,030
    Interest and Penalty Income                                                    5                              13
    Termination Premium                                                         202                              237
    Less Write-offs of Interest, Penalties,
     and Termination Premiums                                                   (207)                           (244)
    Total                                                                     $2,164                           $2,324

    Single-Employer                                                           $2,077                           $2,237
    Termination Premium *                                                       202                              237
    Less Write-offs of Interest, Penalties,
     and Termination Premiums                                                   (207)                           (243)
    Total Single-Employer                                                      2,072                           2,231
    Multiemployer                                                                 92                              94
    Less Write-offs of Interest
     and Penalties                                                                 0**                            (1)
    Total Multiemployer                                                           92                              93
    Total                                                                     $2,164                          $2,324


* The termination premium is reserved at 100% since no significant collection has yet been achieved.
** less than $500,000




                                                                        35 
 
 


Note 12: Losses from Completed and Probable Terminations
    Amounts reported as losses are the present value of future benefits less related plan assets and the
present value of expected recoveries from sponsors. The following table details the components that make
up the losses:


LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS
SINGLE-EMPLOYER PROGRAM
                                                                                        For the Years Ended September 30,
                                                                         2011                                                        2010
                                                                      Changes in                                                  Changes in
    (Dollars in millions)                           New               Prior Year          Total                   New             Prior Year           Total
                                                 Terminations        Terminations                              Terminations      Terminations
    Present value of future benefits                  $2,363                $ (206)       $2,157                   $ 3,130                $ (15)       $3,115
    Less plan assets                                   1,173                    175        1,348                     1,688                   474        2,162
    Plan asset insufficiency                           1,190                   (381)         809                     1,442                 (489)          953
    Less estimated recoveries                              0                    (3)           (3)                        0                    16           16
    Subtotal                                           1,190*                 (378)          812                     1,442*                (505)         937
    Settlements and judgments                                                     1             1                                             (3)           (3)
    Loss (credit) on probables                           (474)                (138)         (612)**                   (596)                  171         (425)**
    Total                                               $ 716                $(515)       $ 201                     $ 846                $(337)        $ 509
 

    * gross amounts for plans terminated during the year
    ** see Note 6 – includes a credit of $474 million at September 30, 2011, and includes a credit of $596 million at September 30, 2010, previously
    recorded relating to plans that terminated during the period




                                                                            36 
 
 



Note 13: Financial Income
   The following table details the combined financial income by type of investment for both the single-
employer and multiemployer programs:
    INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                                 Single-Employer Multiemployer          Memorandum       Single-Employer   Multiemployer    Memorandum
                                     Program        Program                Total             Program         Program            Total
    (Dollars in millions)          Sept. 30, 2011 Sept. 30, 2011        Sept. 30, 2011    Sept. 30, 2010   Sept. 30, 2010   Sept. 30, 2010

    Fixed maturity securities:
      Interest earned             $       1,796    $        57          $       1,853    $        1,587    $          54    $       1,641
      Realized gain                         973             31                  1,004             1,527               53            1,580
      Unrealized gain                       733             60                    793             2,119               76            2,195

    Total fixed maturity
      securities                          3,502             148                 3,650             5,233              183            5,416

    Equity securities:
     Dividends earned                        67              0                     67                52                0               52
     Realized gain                        2,857              0                  2,857               573                0              573
     Unrealized gain (loss)              (3,200)             0                 (3,200)            1,491                0            1,491

      Total equity securities              (276)             0                   (276)            2,116                0            2,116

    Private equity:
      Distributions earned                   27              0                     27                19                0               19
      Realized gain (loss)                   (9)             0                     (9)              373                0              373
      Unrealized gain                       126              0                    126                12                0               12

      Total private equity                  144              0                    144               404                0              404

    Other income (loss)                      76              0                     76              (159)               0             (159)

    Total investment income       $       3,446    $        148         $       3,594    $        7,594    $         183    $       7,777




                                                                  37 
 
 


Note 14: Employee Benefit Plans
     All permanent full-time and part-time PBGC employees are covered by the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-time employees
with less than five years service under CSRS and hired after December 31, 1983, are automatically covered by
both Social Security and FERS. Employees hired before January 1, 1984, participate in CSRS unless they
elected and qualified to transfer to FERS.
    The Corporation’s contribution to the CSRS plan for both 2011 and 2010 was 7.0 percent of base pay for
those employees covered by that system. For those employees covered by FERS, the Corporation’s
contribution was 11.2 percent of base pay for both 2011 and 2010. In addition, for FERS-covered
employees, PBGC automatically contributes one percent of base pay to the employee’s Thrift Savings
account, matches the first three percent contributed by the employee and matches one-half of the next two
percent contributed by the employee. Total retirement plan expenses amounted to $19 million in 2011 and
$18 million in 2010.
    These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits applicable to
PBGC employees. These amounts are reported by the U.S. Office of Personnel Management (OPM) and are
not allocated to the individual employers. OPM accounts for federal health and life insurance programs for
those eligible retired PBGC employees who had selected federal government-sponsored plans. PBGC does
not offer other supplemental health and life insurance benefits to its employees.


Note 15: Cash Flows
    The following two tables, one for Sales and one for Purchases, provide further details on cash flows from
investment activity. Sales and purchases of investments are driven by the level of newly trusteed plans, the
unique investment strategies implemented by PBGC’s investment managers, and the varying capital market
conditions in which they invest during the year. These cash flow numbers can vary significantly from year to
year based on the fluctuation in these three variables.


    INVESTING ACTIVITIES (SINGLE-EMPLOYER
    AND MULTIEMPLOYER PROGRAMS COMBINED)
                                                                  September 30,
     (Dollars in millions)                                 2011                      2010

     Proceeds from sales of investments:
        Fixed maturity securities                     $73,641                     $60,295
        Equity securities                               9,113                       5,302
        Other/uncategorized                             3,704                       6,901
     Memorandum total                                 $86,458                     $72,498

     Payments for purchases of investments:
        Fixed maturity securities                    $(77,935)                    $(63,937)
        Equity securities                              (4,144)                      (4,504)
        Other/uncategorized                            (2,248)                      (1,811)
     Memorandum total                                $(84,327)                    $(70,252)
 




                                                     38 
 
 


    The following is a reconciliation between the net income as reported in the Statements of Operations and
Changes in Net Position and net cash provided by operating activities as reported in the Statements of Cash
Flows.
RECONCILIATION OF NET INCOME TO NET CASH PROVIDED
BY OPERATING ACTIVITIES
                                                              Single-Employer            Multiemployer        Memorandum
                                                                  Program                   Program               Total
                                                                 September 30,            September 30,        September 30,
    (Dollars in millions)                                       2011       2010           2011      2010      2011        2010

    Net income (loss)                                       $(1,672)     $    (517)    $(1,334)   $(567)   $(3,006)    $(1,084)
    Adjustments to reconcile net income to net cash
     provided by operating activities:
       Net (appreciation) decline in fair value of
           investments                                       (1,634)         (6,022)      (91)     (131)    (1,725)     (6,153)
       Net gain (loss) of plans pending termination and
           trusteeship                                          23               37         0        0         23          37
       Losses (credits) on completed
           and probable terminations                            201             509         0        0         201        509
       Actuarial charges (credits)                            6,561           9,421          0       0       6,561       9,421
       Benefit payments - trusteed plans                     (5,382)         (5,284)        0        0      (5,382)     (5,284)
       Settlements and judgments                                   0              0         0        0           0           0
       Cash received from plans upon trusteeship                  36             81         0        0          36          81
       Receipts from sponsors/non-sponsors                        70           241          0        0          70        241
       Amortization of discounts/premiums                        100            89         10        9          110         98
       Changes in assets and liabilities, net of effects
          of trusteed and pending plans:
            (Increase) decrease in receivables                  144           (179)         1        4         145       (175)
             Increase in present value of
               nonrecoverable future financial assistance                               1,445      734       1,445        734
             Increase in unearned premiums                        2            9            0        0           2           9
             Increase (decrease) in accounts payable            (33)          14           0         2         (33)         16
    Net cash provided (used) by operating activities        $(1,584)     $(1,601)      $ 31       $ 51     $(1,553)    $(1,550)



Note 16: Litigation
   Legal challenges to PBGC’s policies and positions continued in 2011. At the end of the fiscal year,
PBGC had 40 active cases in state and federal courts and 459 bankruptcy and state receivership cases.
    PBGC records as a liability on its financial statements an estimated cost for unresolved litigation to the
extent that losses in such cases are probable and estimable in amount. In addition to such recorded costs,
PBGC estimates with a degree of certainty that possible losses of up to $68 million could be incurred in the
event that PBGC does not prevail in these matters.

Note 17: Subsequent Events
     Management evaluated subsequent events through November 14, 2011, the date the financial statements
were available to be issued. Events or transactions for either the single-employer or multiemployer program,
occurring after September 30, 2011 and before the financial statements were available to be issued, that
provided additional evidence about conditions that existed at September 30, 2011 have been recognized in
the financial statements.
     For the single-employer program, there were two nonrecognized subsequent events. Subsequent to
September 30, 2011, business and financial conditions significantly declined for two single-employer plans
(unfunded guaranteed liabilities of $188 million). Had these events occurred on or prior to September 30,
2011, PBGC’s financial statements would have reflected an additional loss of $188 million resulting in a FY
2011 single-employer Net loss of $1,860 million and a FY 2011 single-employer Net position of $(23,454)
million.



                                                                       39 
 
 


    For the multiemployer program, there were no nonrecognized subsequent events or transactions that
provided evidence about conditions that did not exist at September 30, 2011, and which arose before the
financial statements were available to be issued.




                                                    40 
 
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2011 and 2010 Financial Statements

      Audit Report AUD-2012-1 / FA-11-82-1




                   Section III

          Management Comments
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
